<html>
<title> - AN OVERVIEW OF U.S. POLICY IN AFRICA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  AN OVERVIEW OF U.S. POLICY IN AFRICA 

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2010

                               __________

                           Serial No. 111-107

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-689 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary, Bureau of 
  African Affairs, United States Department of State.............     7
Mr. Earl Gast, Senior Deputy Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    23
The Honorable Princeton N. Lyman, Adjunct Senior Fellow for 
  Africa Policy Studies, Council on Foreign Relations (Former 
  United States Ambassador to South Africa and Nigeria)..........    49
Mr. Almami Cyllah, Regional Director for Africa, International 
  Foundation for Electoral Systems...............................    59
Witney W. Schneidman, Ph.D., President, Schneidman & Associates 
  International..................................................    85
Mr. Gregory B. Simpkins, Vice President, Policy & Program 
  Development, The Leon H. Sullivan Foundation...................    94

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................    11
Mr. Earl Gast: Prepared statement................................    26
The Honorable Princeton N. Lyman: Prepared statement.............    52
Mr. Almami Cyllah: Prepared statement............................    62
Witney W. Schneidman, Ph.D.: Prepared statement..................    88
Mr. Gregory B. Simpkins: Prepared statement......................    96

                                APPENDIX

Hearing notice...................................................   120
Hearing minutes..................................................   122


                  AN OVERVIEW OF U.S. POLICY IN AFRICA

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. Donald Payne 
(chairman of the subcommittee) presiding.
    Mr. Payne. Good afternoon. Let me welcome you to this 
critically important hearing entitled, ``An Overview of U.S. 
Policy in Africa.'' Let me begin by extending our apologies for 
the voting that we just completed. Hopefully, members will be 
coming in, although there are a number of conflicts because of 
the timing of the votes. Whenever the ranking member gets here, 
we will interrupt and allow him to give his remarks. Currently, 
he is on the Senate side, but he is on his way here.
    As the title suggests, the purpose of this hearing is to 
discuss the administration's policy on the continent of Africa. 
And we are very pleased to be able to have this very important 
hearing. We can certainly tell by the audience here that there 
is a tremendous amount of interest in the continent, and we are 
here to gain an understanding of both the overall policy toward 
the region and the United States' position on key and pressing 
issues of the day.
    To that end, we have two distinguished panels, which I will 
introduce following the members' opening statements. Let me 
thank the witnesses for coming, particularly the Assistant 
Secretary of State, Ambassador Johnnie Carson, and USAID Senior 
Deputy Assistant Administrator Earl Gast, as well as our 
private panel consisting of Ambassador Princeton Lyman, Almami 
Cyllah, Witney Schneidman, and Gregory Simpkins.
    As someone who has followed and worked in Africa for over 
40 years, there have been many sweeping changes, especially in 
recent U.S. policy in Africa. The continent has gone from being 
a region with little strategic significance in the view of 
policymakers to one that holds critical and strategic economic, 
national security and humanitarian interests in just the last 
20 years.
    Indeed, the United States has moved away from a policy in 
Africa that hinged on containing the Soviet sphere of influence 
during the Cold War, a policy, as many of us here know, that 
too often led the United States to support dictatorial regimes 
on the continent with disastrous results, which in some 
instances are still being felt.
    During the tenures of Presidents Bill Clinton and George W. 
Bush, U.S. interests in the continent greatly increased and the 
focus began to shift away from solely humanitarian interest. 
The Africa Growth and Opportunity Act (AGOA), a preferential 
program designed to spur increased African imports to the 
United States and to build Africa trade capacity, and the 
President's Emergency Plan for AIDS Relief (PEPFAR)--the 
landmark $15 billion, now $48 billion treatment programs were 
created by Presidents Clinton and Bush, respectively--both very 
important programs which have a tremendous impact on the 
continent. Both dramatically reshaped the discourse and the 
depth of U.S.-Africa policy. As a matter of fact, the Africa 
Diplomatic Corps did a great job in shaping the AGOA 
legislation, and we have certainly benefitted from their input.
    The Obama administration showed keen interest in Africa 
early on with a brief visit by President Obama himself to Ghana 
and an 11-day trip to seven countries in Africa by Secretary of 
State Hillary Clinton. I accompanied Secretary Clinton on part 
of her trip, and must say that the response was overwhelmingly 
positive and hopeful in terms of closer bilateral relations and 
partnership in each of the African countries that she visited. 
Many others were asking why not us because they were all 
anxious to see the new team. You will hear also from our 
Assistant Secretary, who also was on that very important trip.
    In 2009, the President unveiled two new programs that will 
change the landscape and deepen U.S. support for long-term 
sustainable development on the continent.
    The Global Health Initiative is a 6-year, $63 billion 
program which includes the $48 billion authorized from PEPFAR 
initially plus an additional $3 billion for PEPFAR to make that 
$51 billion, and the remaining of the $63 billion to help the 
partner countries improve health outcomes through strengthening 
health systems, with particular focus on improving the health 
of women, newborns, and children.
    The U.S. Global Food Security Initiative is a welcome 
paradigm shift back to strong investments in agricultural 
development, both as a means to increased food security and as 
a critical element of long-term sustainable development in poor 
regions of the world, particularly in Africa. Both programs 
have significant impact on the continent.
    Another program which has a major impact on Africa is the 
Millennium Challenge Corporation, another program started 
during the Bush administration. The majority of the MCC 
compacts are with African nations, 11 active compacts out of 
20. There were 20 total compacts in Africa; however, Madagascar 
was suspended following the recent coup. While these 
initiatives are certainly very strong signs of U.S. focus on 
Africa, many challenges remain, particularly in the area of 
democracy and governance and conflict, which warrants an 
ongoing discussion of U.S. policy.
    My concerns over Somalia, Sudan, Nigeria, and elsewhere are 
well known. So I will instead highlight troubling issues of 
three other countries emerging with problems--Ethiopia, 
Somaliland, and Djibouti. I am deeply concerned and troubled 
about the deteriorating conditions in Ethiopia. The Ethiopian 
Peoples' Revolutionary Democratic Front (EPRDR) regime is 
becoming increasingly totalitarian. A few weeks ago, the 
government began to jam the Voice of America Amharic program, 
and the Prime Minister compared the VOA to the hate radio 
station Libres des Mille Collines, the radio station which was 
used by the Rwandan Government, who committed the genocide in 
Rwanda. This is just unbelievable.
    My concern continues for the deteriorating condition of 
Mrs. Birtukan, who testified right here before this committee 
and continues to languish in prison in Ethiopia, along with 
hundreds of others without access to medical care, and her 
situation is deteriorating as we speak. I hope to learn more 
today on what our policy is toward Ethiopia.
    The Government of Somaliland in February handed over a 
woman named Mrs. Bishaaro, a registered refugee in Somaliland 
to Ethiopian security forces. A few years ago, she was arrested 
and tortured by Ethiopian security, and her husband was 
executed. I understand there is a delegation visiting from 
Somaliland currently and hope to learn what the United States' 
position is on this case, and on Somaliland more broadly.
    I am also concerned about the lack of development 
assistance funding for Djibouti, a strong ally to the United 
States, which plays an important role in the promotion of peace 
on the Horn of Africa. I will speak more details on all of 
these three countries during the question and answer period of 
this hearing.
    The committee looks forward to this very important hearing 
and all of the witnesses and their testimonies. And let me once 
again thank the witnesses and all of you for being here today. 
And as you see, our ranking member has arrived, and so I will 
now turn over the time to our ranking member for his opening 
statement.
    Mr. Smith. Thank you very much, Mr. Chairman. As you may 
know, I also serve as ranking on the Executive Commission on 
China, and we had a hearing on Google and the whole human 
rights issue there, which unfortunately, countries like 
Ethiopia and a growing number of countries of Africa are taking 
the capability and the expertise, technologically and 
otherwise, that China provides, and they are using it as a tool 
of repression. So this issue is certainly applicable to a 
growing number of African countries where there are despotic 
regimes.
    I do want to thank you, Mr. Chairman, for calling this 
timely hearing to examine the current U.S. policy in Africa. I 
am pleased to have the opportunity to engage in this discussion 
with senior administration officials, the Honorable Johnnie 
Carson and Mr. Earl Gast, as well as our second panel of 
distinguished witnesses. I especially want to welcome my good 
friend, Greg Simpkins, vice president of the Leon Sullivan 
Foundation, who used to be our staff director on the Africa 
Subcommittee when I chaired it. And it is a delight to welcome 
him back to the committee this time as a witness.
    While there are numerous, and I mean numerous, major 
issues--and you brought up Ethiopia, Mr. Chairman. And as you 
know, we together worked on the Ethiopia Human Rights Act. 
Unfortunately, President Meles shows increasing signs of 
deterioration when it comes to human rights and respect for 
other parties. I hope our distinguished witnesses will speak to 
that.
    But let me raise three particular issues of concern to me, 
but in no way is this an exhaustive list. One is with respect 
to U.N. peacekeeping missions in Africa. There are seven such 
missions spanning the same number of countries. These 
peacekeeping operations have a critical role to play in some of 
the most volatile areas in the world, among vulnerable 
populations that have suffered extraordinary violence and human 
rights violations. Countries that contribute their personnel to 
this highly laudable undertaking are to be commended for doing 
so. But they must also accept responsibility for ensuring that 
military personnel from their country do not exploit the 
populations that they are assigned to protect.
    Following deeply troubling reports about peacekeeping 
personnel engaging in trafficking of persons, I chaired several 
hearings--as you know, Mr. Chairman, because you were very much 
a part of that--that focused on those egregious abuses, 
particularly against children, particularly in the DR Congo. 
When I rewrote the Trafficking Victims Protection 
Reauthorization Act--as you know, I am the prime sponsor of the 
original bill--when we did the authorization in 2005, we 
addressed this issue. One provision amended the minimum 
standards for the elimination of trafficking to include an 
assessment of measures that respective countries are taking to 
ensure that their nationals who are deployed abroad as part of 
a peacekeeping operation do not engage in or facilitate severe 
forms of trafficking in persons or exploit victims through 
other means.
    A second provision requires that the Secretary of State 
submit a report to Congress at least 15 days prior to a vote 
for a new or reauthorized peacekeeping mission that contains a 
description of the measures taken to prevent peacekeeping 
forces from ``trafficking in person, exploiting victims of 
trafficking, or committing acts of sexual exploitation or 
abuse, and the measures in place to hold accountable any such 
individuals who engage in any such acts while participating in 
a peacekeeping mission.'' And I would encourage the 
administration to clearly comply with that law. Sometimes we 
have less than stellar cooperation from any administration. So 
I would ask that you really look to live up to that.
    One might question the compliance with this reporting 
mandate, both in terms of meeting the congressional intent of 
this statutory provision, and in fulfilling the purpose for 
which it was implemented. It is deeply disturbing that the 
problem of sexual exploitation and trafficking by peacekeeping 
personnel not only continues, but is growing worse. I learned 
of continuing problems when I visited the Democratic Republic 
of the Congo and inquired about MONUC 2 years ago. Not only 
were serious allegations being made against peacekeeping 
soldiers, but the United Nations Office of Internal Oversight 
Services that is responsible for investigating those 
allegations was moving its personnel to Nairobi, Kenya--far 
from where it could effectively fulfill its mandate.
    MONUC is not the only mission where concerns about sexual 
exploitation apply. As a March 21, 2010, report by the Wall 
Street Journal points out, allegations of sex-related crimes 
against peacekeeping personnel in general increased last year 
by 12 percent to a total of 55, and some of those allegations 
involved minors. Furthermore, countries of accused personnel 
only responded 14 times to a total of 82 requests from the U.N. 
for information about sexually related investigations or their 
outcomes.
    I will be interested to explore, and I hope our panel can 
provide some insights into this very serious issue. When the 
people who are there to protect become the perpetrators of 
crimes, who is to protect those innocent individuals? And I 
know the U.N. has a zero tolerance policy. I hope we are still 
not talking about zero implementation. I don't think that is 
the case, but that was the case early on after that policy was 
announced.
    A second issue of grave concern, of course shared by every 
member of this committee, is the situation in Sudan, which we 
all recognize is at a critical crossroads. The country may 
successfully traverse elections next month, and a referendum in 
January 2011, and establish a stable, long-term peace in Darfur 
along the way, or it could backslide into a state of carnage 
and destruction that has plagued the country for two decades.
    The implications are formidable, not only for the Sudanese, 
but for the people in the entire region. And I would note 
parenthetically my friend, Greg Simpkins, joined me when we met 
with Bashir about 4 years ago. And frankly, the only thing that 
General Bashir wanted to talk about was lifting the sanctions. 
Greg will remember it well. Nothing about compliance, nothing 
about living up to international norms and human rights. But 
all he wanted to do is talk about lifting the sanctions. 
Sanctions will be lifted when there is peace and when there is 
respect for human rights.
    And finally, as we discussed in our recent subcommittee 
hearing, Mr. Chairman, our PEPFAR program has had an enormously 
positive impact in addressing the HIV/AIDS pandemic that has 
ravaged Africa. We must ensure that we continue to work with 
African countries to meet this and other global health 
challenges. However, I must express my grave reservations with 
respect to certain aspects of the President's Global Health 
Initiative.
    When the reauthorization of PEPFAR was being debated in 
2008, references to integrating and providing explicit funding 
for authorization for ``reproductive health,'' which nobody 
would deny reproductive health in its clearest definition, the 
most applied definition used in Africa, is something we all 
want, but not when it is hooked with and used as code for 
abortion. The term as we wrote that legislation did not appear 
in the final legislation. Yet the new GHI emphasizes the 
integration of HIV/AIDS programming with family planning, as 
well as with various health programs. This is being undertaken 
in the context of a family planning program and the action 
taken by President Obama to rescind Mexico City Policy now 
includes foreign nongovernmental organizations that provide 
support and lobby for and perform abortion on demand.
    When one considers that this involves over $715 million in 
funding under the 2011 proposed budget, the ability for 
abortion groups to leverage this funding in relation to U.S. 
HIV/AIDS funding under GHI is deeply disturbing. This 
integration priority is wrong. We are trying to prevent HIV/
AIDS, not children. It is time to recognize that abortion is 
child mortality. Abortion methods dismember, poison, and starve 
to death a baby, and it wounds their mothers.
    Safe abortion, Mr. Chairman--and it is used by this 
administration and by some in the U.N.--is the ultimate 
oxymoron. Child dismemberment, forced premature expulsion from 
the safety of the womb, chemical poisoning, and deliberate 
starvation--let us not forget that one of the chemicals in RU-
486 denies nourishment to an unborn child. They literally 
starve to death, and then the other chemical brings upon labor. 
None of this can ever, ever be construed to be benign, cannot 
be construed to be compassionate, or safe.
    Goal number four of the Millennium Development Goals calls 
on each country to reduce child mortality, while at the same 
time pro-abortion activists lobby for an increase in abortion. 
It is bewildering to me, Mr. Chairman, how anyone can fail to 
understand that abortion is, by definition, infant mortality. 
Abortion destroys children.
    Let me also point out--and I hope this committee, and I 
hope members and the audience, will consider this--that there 
are at least 102 studies that show significant psychological 
harm, including major depression and elevated risk of suicide, 
in women who abort. It doesn't happen right after the abortion. 
It kicks in later, leading to intermediate and long-term 
results. At least 28 studies, including three in 2009, show 
that abortion increases the risk of breast cancer by some 30 to 
40 percent or more, yet the abortion industry has largely 
succeeded in suppressing those facts. So-called safe abortion 
inflicts other deleterious consequences on women, and includes 
hemorrhage, infection, perforation of the uterus, sterility, 
and death. Just last month, a woman from my own state of New 
Jersey died from a legal abortion, leaving behind four 
children.
    Finally, at least 113 studies show a significant 
association between abortion and subsequent premature births. 
For example, a study by researchers Shah and Zoe showed a 36 
percent increased risk for preterm birth after one abortion and 
a staggering 93 percent increased risk after two. Similarly, 
the risk of subsequent children being born with low birth 
weight increases by 35 percent after one abortion, and 72 
percent after two or more.
    Another study shows an increased risk of nine times after a 
woman has had three abortions. What does this mean for 
children, especially in Africa? Preterm birth is the leading 
cause of infant mortality in the industrialized countries after 
congenital anomalies. Preterm infants have a greater risk of 
suffering from chronic lung disease, sensory deficits, cerebral 
palsy, cognitive impairments, and behavioral problems. Low 
birth weight is similarly associated with neonatal mortality 
and morbidity.
    Mr. Chairman, it is about time, I believe, that we as a 
nation--as you know, we have heard testimony from Dr. Jane 
Kagia, an OB-GYN in Kenya and others from Africa, that Africa 
wants its children protected, whether unborn, newborn, or 5-
year-olds, and we ought to adopt a consistent policy of human 
rights protection that says all are welcomed, and we will shred 
the welcome mat for none. I yield back.
    Mr. Payne. Thank you. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman, and I am going to be 
very, very quick because I want to hear from the witnesses. I 
just have to say to the witnesses of both panels that I have 
confidence that you are going to reassure me that you 
understand that family planning is not the same thing as an 
abortion, and that families or a woman's ability to choose the 
appropriate timing for that family or that woman for a 
pregnancy actually prevents abortions, savings lives, bringing 
stronger, healthier, wanted babies into the world. So I am 
looking forward to your testimonies. Thank you, Mr. Chairman.
    Mr. Payne. Thank you very much, Ms. Woolsey. Mr. Flake.
    Mr. Flake. No comments.
    Mr. Payne. Thank you. Now let us take our first panel. 
First we have Ambassador Johnnie Carson. Ambassador Carson 
serves as the Assistant Secretary of State for the Bureau of 
African Affairs at the Department of State. He has an 
established career in the foreign service. He previously served 
as Ambassador to Kenya, Zimbabwe, and Uganda, as well as the 
principal Deputy Assistant Secretary for the Bureau of African 
Affairs from 1997 to 1999.
    In addition to several posts in sub-Saharan Africa, he 
served as desk officer in the Bureau of Intelligence and 
Research from 1971 to 1974, and staff officer for the Secretary 
of State from 1978 to 1982. Beyond the State Department, 
Ambassador Carson served as the staff director for the House 
Africa Subcommittee from 1979 to 1982, and he was a Peace Corps 
volunteer in Tanzania from 1965 to 1968, a few years after the 
inception of the Peace Corps.
    During his career, Ambassador Carson received several 
awards, including the Department of State's Superior Honors 
Award, and the Centers for Disease Control's Champion of 
Prevention Award. Ambassador Carson holds a bachelor of arts in 
history and political science from Drake University and a 
masters of art in international relations from the School of 
Oriental and African Studies at the University of London.
    Second, we have Mr. Earl Gast, Senior Deputy Assistant 
Administrator for Africa at the United States Agency for 
International Development. As the senior assistant 
administrator, Mr. Gast oversees the bureau's offices of Sudan 
programs, East African affairs, administrative services, and 
development programming. Mr. Gast has served at USAID for 19 
years. He previously served as supervisory program officer for 
the USAID caucus' regional mission and the USAID regional 
mission director in Ukraine, Belarus, and Moldavia, and as the 
USAID representative to the United Nations agencies in Rome. He 
also held posts in Iraq and Kosovo.
    Mr. Gast holds a masters degree in political science and 
Middle East studies from George Washington University and 
graduated summa cum laude from the University of Maryland with 
a bachelors degree in history and criminal law.
    We will begin with Ambassador Carson.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY, 
  BUREAU OF AFRICAN AFFAIRS, UNITED STATES DEPARTMENT OF STATE

    Ambassador Carson. Chairman Payne, Congressman Smith, 
members of the committee, I welcome the opportunity to appear 
before you today to discuss U.S. Government policy toward 
Africa. As you know, this is my first appearance before this 
committee, and I salute your commitment to Africa, as well as 
your efforts to examine tough issues. I look forward to working 
closely with the Congress, and especially with you, Mr. 
Chairman, and the other members of this committee.
    I have a longer statement for the record, which I would 
like to have submitted. But let me----
    Mr. Payne. Without objection.
    Ambassador Carson. Thank you, Mr. Chairman. President Obama 
has a strong interest in Africa and has made Africa one of our 
top foreign policy priorities. This has been evident throughout 
his first year in office. Last year, in July, President Obama 
traveled to Ghana, where he met with President John Atta Mills 
and spoke before the Ghanian Parliament about his vision for 
the continent. President Obama has met in the Oval Office with 
President Kikwete of Tanzania, President Ian Khama of Botswana, 
Prime Minister Morgan Tsvangirai of Zimbabwe, and in September, 
at the United Nations General Assembly, he met with 21 African 
heads of state.
    All of the President's senior foreign policy advisors have 
followed his lead. And last August, Secretary Clinton, as you 
remarked, Mr. Chairman, embarked on an 11-day trip to Africa, 
including stops in Kenya, South Africa, Angola, the Democratic 
Republic of the Congo, Nigeria, Liberia, and Cape Verde.
    President Obama has said repeatedly that the United States 
views Africa as our partner, and as a partner of the 
international community. We are committed to substantial 
increases in foreign assistance for Africa, but we know that 
additional assistance will not by itself automatically produce 
success. Instead, success will be defined by how well we work 
together as partners to build Africa's capacity for long-term 
change and ultimately the need for less development assistance.
    As Africa's partner, the United States is ready to 
contribute to Africa's growth and stabilization, but ultimately 
African leaders and countries must take control of their 
futures. Having said that, we are committed to a very positive 
and forward-looking Africa policy built on five principles that 
reflect our interest and define the work that we have been 
doing over the past year.
    First, we will work with African governments, the 
international community, and civil society to strengthen 
democratic institutions and protect the democratic gains made 
in recent years in many African countries. A key element in 
Africa's transformation is sustained commitment to democracy, 
rule of law, and to constitutional norms. Africa has indeed 
made significant progress in this area. Botswana, Ghana, 
Tanzania, Mauritius, Benin, and South Africa are but a few 
examples of countries that are showing democratic commitment.
    But progress in this area must be more widespread, and 
certainly cannot be taken for granted. Some scholars and 
political analysts believe that democracy in Africa may have 
reached a plateau, and that we may be witnessing the beginning 
of a democratic recession. They point to flawed Presidential 
elections over the last 5 years in places like Kenya, Ethiopia, 
and Zimbabwe; the attempts by leaders and countries like Niger, 
Uganda, and Cameroon to extend their terms of office; and 
certainly in more recent months and years, the reemergence of 
military interventionism in countries like Guinea Conakry, 
Guinea-Bissau, Madagascar, and just 1\1/2\ months ago, in 
Niger.
    Moreover, democracy remains fragile in large states like 
the Democratic Republic of the Congo, in Sudan, and arguably in 
Africa's most important and most populous country, Nigeria. 
During my recent visit to Nigeria, I was encouraged by the 
steps Nigeria's elected officials at the national and state 
level to elevate Vice President Goodluck Jonathan to the role 
of acting President.
    Although political progress has been made in that country, 
Nigeria still faces significant political challenges and 
uncertainty in the runup to the next Presidential elections, 
probably in May 2011. It is important that Nigeria improve its 
electoral system, reinvigorate its economy, resolve the 
conflicts in the Niger Delta, and end the communal violence 
that has occurred most recently in Plateau State. It is also 
critically important that all of Nigeria's leaders act 
responsibly and reaffirm their commitment to good governance, 
stability, and democracy by choosing constitutional rule.
    Second, Africa's future success and global importance are 
dependent upon its continued economic progress and growth. 
Africa has made measurable inroads to increase prosperity. 
Countries like Mauritius, Ghana, Rwanda, Botswana, Tanzania, 
Uganda, and Cape Verde have made significant economic strides 
over the last decade, yet Africa remains the poorest and most 
vulnerable continent on the globe.
    To help turn this situation around, we must work to 
revitalize Africa's agricultural sector, which employs more 
than 70 percent of African households directly or indirectly. 
Now is the time for a green revolution in Africa's agriculture. 
Through innovative approaches and nontraditional technology, we 
can improve the lives of millions of people across the 
continent, and the administration's Food Security Initiative is 
designed to help do this.
    The United States also wants to strengthen its trading 
relationship with Africa and to explore ways to promote African 
private sector growth and investment, especially for small and 
medium-sized businesses. We already have strong ties in energy, 
textiles, and transportation equipment, but we can and should 
do more in the economic field. The Obama administration is 
committed to working with our African partners to maximize the 
opportunities created by our trade preference programs like 
AGOA, and we will continue to encourage American investment and 
greater American trade with Africa.
    Third, historically the United States has focused on public 
health and health related issues in Africa. We remain 
committed, and aim to help alleviate the health crisis across 
the entire continent. We believe that African governments, as 
well as the international community, must invest more in 
Africa's public health systems, train more medical 
professionals, and ensure that there are well-paying 
opportunities for African medical professionals in their own 
countries.
    We must also focus on maternal and infant health care, 
which are closely related to several millennium development 
goals. The Obama administration will continue the PEPFAR 
program that the previous administration launched to combat the 
HIV/AIDS pandemic in Africa. In total, the Obama administration 
has pledged some $63 billion to meet the wide range of public 
health challenges that confront Africa today.
    Fourth, the United States is committed to working with 
African states and the international community to prevent, 
mitigate, and resolve conflicts and disputes across the 
continent. Conflict destabilizes states and entire regions, 
stifles economic growth and investment, robs young Africans of 
the opportunity for an education and a better economic future. 
Although there has been a notable reduction in the number of 
conflicts over the past decade, areas of turmoil and political 
unrest in countries like Guinea, Somalia, Sudan, and the 
Democratic Republic can generate both internal and regional 
instability.
    Furthermore, we must not forget the extreme harm inflicted 
by gender-based violence and the recruitment of child soldiers. 
The Obama administration is working to end conflicts across 
Africa so that peace and economic progress can replace 
instability and uncertainty. The United States has been and 
will continue to work proactively with African leaders, civil 
society organizations, and the international community to 
prevent new conflicts.
    Over the past year, we have been diplomatically engaged in 
Mauritania, in Guinea Conakry, in Nigeria, Niger, Kenya, 
Somalia, and Sudan to help resolve conflicts. We have also had 
discussions with leaders of a number of other countries where 
the political situations are fragile and unstable. As we pursue 
these avenues of promoting stability and peace in places like 
Somalia, we are also shouldering the lion's share of 
humanitarian assistance in countries like Somalia, Sudan, and 
also Ethiopia.
    Fifth, Mr. Chairman, we will seek to deepen our cooperation 
with African states to address both old and new transnational 
challenges. Africa's poverty puts it at a distinct disadvantage 
in dealing with major global and transnational problems like 
climate change, narco-trafficking, trafficking in people, and 
the illegal exploitation of Africa's minerals and maritime 
resources.
    Finally, one of my personal goals as Assistant Secretary is 
to expand our diplomatic presence in Africa. I am working 
within the State Department and the administration, and also 
with those in Congress to increase resources, both funding for 
people and programs at our embassies and consulates in Africa. 
I want, because I think we need, more American diplomats 
working across Africa, and increased diplomatic presence is 
important in making progress on all of the five principles that 
I outlined.
    I think we should be present in Mombasa as well as in 
Nairobi, in Goma as well as in Kinshasa, in Kano as well as 
Abuja and Lagos. Being in these cities will enable us to reach 
important audiences that we do not reach directly now. We also 
have to do a better job of using our diplomatic presence on the 
continent to listen to the people of Africa and to learn from 
them how we can better work together to meet the challenges 
that they face.
    The Obama administration believes in and is committed to 
Africa's future and its great promise. I think this is a vision 
that the members of this committee share as well. I appreciate 
your commitment to this shared vision and your willingness to 
work with me and the Department of State together to strengthen 
U.S.-African relations and to work collaboratively toward a 
future that brings better governance, expanded democracy, 
greater prosperity, and economic growth to all of Africa's 
people.
    Thank you very much, Mr. Chairman, for your time, and I 
look forward to answering your questions. Thank you.
    [The prepared statement of Mr. Carson 
follows:]Carson 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Payne. Thank you very much, Ambassador Carson. Mr. 
Gast.

      STATEMENT OF MR. EARL GAST, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Gast. Good afternoon, Chairman Payne, and Ranking 
Member Smith, and other members of the Subcommittee on African 
Affairs. Thank you for the opportunity to testify on USAID's 
work in Africa today.
    When I appeared before the subcommittee last April, I 
discussed positive trends on the road ahead for Africa. 
Unfortunately, some troubling political trends continue to have 
a negative impact on the continent's development: The unsettled 
political landscape in Zimbabwe, increasing restrictions on 
political space in Ethiopia, evidence of democratic backsliding 
in Senegal.
    In each of these settings, poor governance and political 
instability directly undermine the prospects for a better 
future for Africa's children. By 2025, Africa's population will 
exceed 1 billion persons, and the ability of each state to 
respond to its people's needs will be tested like never before.
    USAID is undertaking major programs to address Africa's 
critical interlaced challenges of chronic health issues, 
persistent food insecurity, poverty, climate change, and weak 
governance. Each of these priorities is tightly linked to the 
others. Failure in one area will limit our progress in others. 
But by addressing these issues in an integrated manner, we hope 
to see an increasing number of democratic African countries 
with lower poverty rates that are on a sustainable path of 
growth and that are less dependent on foreign aid.
    Despite the extraordinary progress we have made in 
addressing critical health threats in Africa, they persist, and 
at an unacceptable, alarming rate. That is why President Obama 
has reaffirmed our commitment to combat these threats with a 
$63 billion Global Health Initiative. As you and others have 
mentioned, Mr. Chairman, over the next 6 years, we aim to 
prevent 12 million new cases of HIV around the world, cut the 
numbers of tuberculosis cases in half, and prevent 3 million 
child deaths.
    The Feed the Future Initiative is another new 
groundbreaking effort aimed at significantly and sustainably 
improving lives. Every day sees new challenges to meeting the 
world's demand for food. Feed the Future will help us achieve a 
permanent solution to food insecurity, where every person in a 
society has access at all times to enough food for an active 
and healthy life. But because of Africa's heavy dependence on 
natural resources and agriculture, food security is 
inextricably linked to climate change. By 2020, fluctuations in 
weather may halve the yield of rain-fed agriculture in some of 
Africa's countries.
    USAID's approach to climate change in Africa includes 
integrating adaptation approaches into our bedrock development 
programs. We also plan to expand investments in prediction and 
analysis that identify vulnerabilities early enough in order to 
mitigate threats. We will then use this information to 
coordinate responses with other actors.
    In each of these areas, good governance will be critical to 
making changes sustainable. Consistent with the President's 
vision, USAID's efforts at promoting better governance are an 
integral part of our development agenda. With 17 elections 
scheduled in 2010, we find ourselves with a uniquely far-
reaching opportunity to support democratic transformation and 
sustainable development in Africa.
    We know that Africa's challenges extend beyond a given 
election and that elections are a mere snapshot of democratic 
trends. They are certainly not the whole story. But that is why 
we work to strengthen the rule of law, improve governance, 
support a dynamic civil society, and promote a free and 
independent media. These elements of democracy are just as 
important as the ballot box. Voices need to be heard, systems 
need to function, impartial justice needs to be dispensed, and 
human rights need to be protected every day and not just on 
Election Day. And this is the foundation for long-term 
democratic change.
    In less than a month, the first multiparty election since 
1986 will be held in Sudan. The process has been halting, and 
concerns are multiplying. But the elections are a requirement 
of the 2005 comprehensive peace agreement which ended Sudan's 
long and bloody civil war. If we dismiss the importance of 
these elections out of a fear of an uncomfortable outcome, then 
we are letting down the people of Sudan and risking an ominous 
downward spiral.
    If elections are not held, the crucial 2011 referenda on 
the future status of southern Sudan and Abyei would almost 
certainly be derailed as well. And should the referenda be 
significantly delayed or canceled, there is a very real 
possibility that Sudan would once again plunge into a 
devastating war. Our commitment to helping the Sudanese secure 
a peaceful and stable future for their country has never been 
more critical.
    Amidst all of these events, it is easy to overlook the 
quite incremental successes also taking place. Consider the 
democratic transformation underway across southern Africa. 
During the past 18 months, Angola, Botswana, Malawi, 
Mozambique, Namibia, South Africa, and Zambia all experienced 
peaceful elections. Although these elections still face 
challenges, their steady democratic progress stands in sharp 
contrast to the chaos and discord of neighboring Zimbabwe.
    United States support for the process of democracy will be 
critical to creating and sustaining environments like this 
where it can grow and thrive. In concert with our simultaneous 
commitments in health, food security, and climate change, we 
are confident that we will soon see Africa begin to realize its 
full development potential.
    Before I conclude, I would look to note that today is World 
Tuberculosis Day. Administrator Shah introduced our global 
tuberculosis strategy, which aims to expand treatment and 
control over the next 5 years. TB is curable, and our strategy 
pledges USAID's continued commitment to ensure that people 
around the world have access to the care and treatment they 
need.
    Thank you, Mr. Chairman, Ranking Member Smith, and other 
members of the subcommittee for your time.
    [The prepared statement of Mr. Gast 
follows:]Gast

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Payne. Thank you very much. As you can see, we have a 
vote on, but I believe we will be able to do is to--I could 
perhaps start with a question or two, allow the ranking member 
to ask a question or so, and then we can recess. There will be 
about 15 minutes that we will be in recess because we will 
leave when there is no time left. And so we will be back in 
ample time. Those who have to leave--those who need more time 
can leave. You are excused.
    Let me just as--and thank you both for this. And let me for 
a moment--I see a number of Ambassadors here. Our diplomatic 
corps of Ambassadors or Charges, would you stand just to--we 
can acknowledge you.
    [Applause]
    Mr. Payne. Thank you. Mr. Ambassador, as I have indicated, 
with emerging elections coming in in Ethiopia, could you assess 
the human rights conditions, and what are your estimates of the 
political prisoners currently in jail now? And I wonder if you 
are familiar with Mrs. Birtukan's situation, and where does 
that stand, and also Mr. Mudaskan.
    Ambassador Carson. Thank you, Mr. Chairman. We are watching 
ourselves with great interest the forthcoming elections in 
Ethiopia, and we are encouraging the Government of Ethiopia, as 
well as the opposition parties, to act responsibly during the 
election campaign and during the election itself. We do not 
want to see a repetition of the violence that followed the 
flawed elections of 2005, in which the opposition felt that it 
had not been treated fairly, protested after the elections, and 
a number of opposition leaders were killed in the streets of 
Addis-Ababa.
    We think that it is incumbent upon the government to do 
everything that it possibly can to ensure that the playing 
field is level in the runup to the elections, that there be an 
opportunity for the opposition parties to participate prior to 
the elections in their campaigns, and that they be allowed--
everyone be allowed to vote freely and fairly on Election Day. 
We certainly don't want to see the violence that we saw 5 years 
ago.
    We have had a number of conversations with the Ethiopian 
Government about various aspects of the election, and we 
continue to encourage the government to ensure that these 
elections are as free and fair as they possibly can be.
    With respect to the human rights situation and the number 
of political prisoners, Ethiopia's human rights record could 
indeed be far better than it is right now. There are a number 
of allegations that have been made that have been documented in 
the State Department's human rights report that indicate 
shortcomings in the government's treatment of individuals who 
come under their arrest. We encourage an improvement in those 
human rights situations, and we encourage that the government 
treat everyone in a humane fashion.
    With respect to the exact number of political prisoners, I 
do not know. I can probably give you an estimate after I 
consult with the embassy. The issue of Mrs. Birtukan, we 
ourselves have asked the Ethiopian authorities about why she 
was rearrested after having been paroled, and whether in fact 
we can expect her release any time soon. I was in Ethiopia 
approximately 3 weeks ago. I met with Prime Minister Meles for 
over 1\1/2\ hours. Approximately 1 hour of the discussion was 
devoted to issues related to democracy and governance and the 
need to have free and fair elections. I raised the case of Mrs. 
Birtukan, as well as a number of other individuals who were 
being held by the Ethiopian authorities. I encouraged the 
government to act in a responsible fashion in dealing with 
these cases, and noted very clearly that the continued 
imprisonment of people like Mrs. Birtukan undermine the 
credibility and the image of the Ethiopian Government.
    We will continue to talk to the Ethiopian Government about 
issues related to democracy and governance and human rights as 
well. We think that these issues are important in our bilateral 
relationship.
    Mr. Payne. Thank you very much. I yield to the gentlemen, 
the ranking member.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
your testimony and for your comprehensive statements, which 
were very, very good. I have half a dozen questions. I guess we 
are coming back after the vote. But let me just start off with 
what I left off with in my opening statement.
    You know, when the Mexico City Policy, with all due respect 
to the Obama administration, was lifted, many of us said the 
unborn child in Africa is now at the greatest risk ever because 
the nongovernmental organizations that will be funded see it as 
their mission to bring abortion on demand to those countries. 
And while you may not want to answer or respond, but, you know, 
I authored the Child Survival Fund amendment back in the early 
1980s--I have been here 30 years--which provided oral 
rehydration therapy and vaccinations. We put $50 million in 
that fund because it was all about the child survival 
revolution, enfranchising, protecting, and putting our arms 
around every child, regardless of race, color, sex, or 
condition of dependency. And unborn children, obviously, are 
dependent, but they are no less human or alive than all of us 
in this room. Birth is an event that happens to each and every 
one of us.
    And I do believe there are people in the room that 
disagree, people on the panel who disagree, but I do believe 
that abortion is violence against children. And the statistics 
clearly show it imposes serious harm upon women. Disability in 
many parts of Africa, as we all know, is a death sentence. I am 
working with a number of groups right now in both Kenya as well 
as Nigeria that are working on autism because so many of those 
children, once they manifest autism, are hurt severely. But 
disability, like I said, is often a death sentence for some of 
these children in the developing world.
    We are going to see more disability, and it is absolutely 
predictable, because these foreign nongovernmental 
organizations, with a 50 percent increase in funding over the 
last 2 years alone, see it as their mission to promote abortion 
on demand in Africa. We should hold harmless those children. 
And I am pleading with you. I am asking you. Who we fund does 
matter. And let me just dispel one myth, and I know you know 
this to be true. Under the Mexico City Policy first announced 
by Ronald Reagan--that is how far back it goes--we were the 
largest donor of family planning funds in the world. EU--no one 
even came close, with the pro-life safeguards. So for those who 
want family planning, fine. But the line of demarcation between 
prevention and the taking of that innocent child's human life 
is absolutely profound.
    The Mexico City Policy, which has now been shredded by this 
administration, means that these NGOs that are pushing abortion 
on the continent of Africa have license and have huge U.S. 
taxpayer funding to do it. And I am full of sorrow over that 
fact. I don't know how to stop it. The administration has the 
ability to do what they did, but frankly, you know, babies will 
die, women will be wounded because of that. And I do hope 
somewhere, somehow, you will take another look at that at some 
point because those children are no less a child before birth 
than they are 5 years later. They are just more mature. So I 
ask you to consider that and look forward to coming back and 
asking you some questions.
    Mr. Payne. Okay. Thank you. The time has been divided, and 
so all time is expired. We will recess for it would seem to me 
about 15 minutes. Thanks.
    [Recess]
    Mr. Payne. Thank you. We will reconvene our hearing. And 
let me ask you, Ambassador Carson, last year, as we know, 
Eritrea has been having some problems. However, as you may 
know, I have had continued dialogue with the leadership, the 
President of Eritrea, and we get the impression that Eritrea is 
interested in trying to have some dialogue.
    Now last year, I know you proposed to go to Eritrea--maybe 
in an effort to try to resolve some of the issues there--and 
there are some issues that we have raised with the President, 
some imprisoned persons, et cetera. However, we have always 
been able to have a dialogue and a discussion. I know that the 
Government of Eritrea has offered to send a delegation to 
Washington on a number of occasions, including a letter that 
was sent to the President last year, and I think you might have 
gotten a copy of it. And I understand that the Eritrean 
Government issued a visa for your deputy last week.
    So I just wonder what kind of prospects do you feel there 
may be for the attempt to get some constructive dialogue with 
the Government of Eritrea. What is the policy of the Obama 
administration concerning the border dispute between Ethiopia 
and Eritrea still unresolved? And as you know, there is now a 
border dispute between Eritrea and Djibouti. In my conversation 
with the President there, he was indicating there seemed to be 
less interest in the Ethiopia-Eritrean problem but a lot of 
concern about the dispute between Eritrea and Djibouti. And I 
just wonder, has Eritrea been on the radar screen, and what is 
your assessment of prospects of some dialogue?
    Ambassador Carson. Thank you, Mr. Chairman, for that 
question. The United States would like to have good relations 
with all states in Africa, including Eritrea. But I must 
confess that our relationship with Eritrea is very, very 
fragile and difficult at this moment. We have in the 
administration tried to reach out to that government in order 
to find a way to encourage it to play a much more productive 
role in the Horn of Africa, one of the most volatile regions on 
the continent.
    Our efforts to do so over the last year have been met with 
resistance. Indeed, some 9 months ago, I sought to go out to 
Eritrea and was never in fact given a visa. Secretary Clinton 
also attempted to reach out to the Eritrean Government at the 
highest level, and was also like myself rebuffed.
    We have three sets of issues of concern with our 
relationship with Eritrea. One is a bilateral relationship that 
is difficult. We have had an Ambassador in Eritrea for now 
close to 2\1/2\ years. That Ambassador has not been allowed to 
present his credentials to the Eritrean Government. The 
Eritrean Government has obstructed the activities of our 
Ambassador, prevented him from making speeches, and 
participating in embassy related activities, and they have done 
the same thing to our personnel.
    The Government of Eritrea has also interfered with the 
movement of our pouches through the airport, detaining them for 
weeks on end. And more than that, the Eritrean Government 
continues to detain several Eritrean nationals who worked at 
our embassy. These individuals have not been allowed to 
communicate with their families, with their lawyers, or with 
anyone else. And we do not know even today what their status 
is. We have insisted on more than one occasion that these 
individuals are innocent, local employees who were working at 
our embassy.
    So we have bilateral concerns that go from the top to the 
bottom. But that is not the only set of problems we have. The 
second set of problems is Eritrea's continued meddling inside 
of Somalia. We believe that the Eritrean Government has been 
one of the sources of assistance for El Shabab, which is 
fighting inside of Somalia against the transitional Federal 
Government. All of the other states in the region, including 
all of the EGAT states support the TFG, but it is in fact the 
Eritrean Government that has been the most obvious and clear 
supporter in the Horn of Africa of what in fact is an extremist 
Islamist group.
    And then thirdly, we think that Eritrea has not played a 
constructive role in trying to resolve border conflicts, not 
only the longstanding decade-long conflict with Ethiopia, but 
also a border conflict that continues to persist with Djibouti. 
All three of these sets of concerns cast Eritrea in a negative 
light.
    Indeed, you are right, my deputy has just received a visa 
to Eritrea, and last week the Eritrean desk officer at the 
State Department received a visa. But we know that one swallow 
in spring does not indicate that the winter is over. I think 
that the Eritrean Government can do a number of very, very 
concrete things in one of the three areas that I have mentioned 
that would indicate that they are serious about addressing some 
of the major concerns that are out there. The Eritrean 
Government must perform better, not only with respect to its 
citizens, but also with respect to its near neighbors, and also 
with respect to the global community.
    Eritrea has one of the worst human rights records on the 
continent of Africa today. And the Government of Eritrea treats 
many of its citizens the way they treat our local employees, 
who have been in jail for more than half a decade without 
access to lawyers or visitation privileges from their families.
    Mr. Payne. Thank you very much. And I couldn't agree with 
you more that there are certainly a number of grievances. And 
we visited there, too, and tried to get some breakthroughs. 
However, one of the problems that I do confront is that we do 
have, it seems like, are different policies. This is, of 
course, preceding--you have just been there for 6 or 8 months. 
But the same things will happen in Ethiopia, and we have had 
the closest relationship during the past 6 or 7 years with a 
government that puts people in prison, locks women up, beats 
people, has actually murdered a person in front of their 
spouse, and violated the border agreement between Ethiopia and 
Eritrea. But, you know, we have just continued to have no 
resolution at the General Assembly to sanction Ethiopia.
    And so we have this balancing act that makes it difficult 
in some instances. You know, wrong is wrong, and all wrong 
should be righted, and we should have a policy against 
countries and people that do the wrong things. But it can't be 
selective, and I think it just has got to be unilateral.
    I am going to take 10 minutes because I am going to give my 
colleague 10 minutes. And so I have used seven of it. I went on 
at 5:30, so I will take just 3 more minutes to ask you a 
question about. Well, the panel has to leave. That is the 
problem, and the second panel has to come. If it was up to us, 
we would be here until 9 o'clock tonight. But they have rights, 
too.
    [Laughter]
    Mr. Payne. They may have more rights than we have, from 
what I have been going through during the last couple of weeks, 
and that is domestic, so we won't get into that.
    In regard to Djibouti, our friends, there seems to have 
been a reduction, as I mentioned in my opening remarks, from 
development assistance to Djibouti, and they really have been 
some of our greatest supporters. And I just wonder if you could 
bring me up to date on that; and secondly, can either one of 
you, update me on assistance to the TFG. They are struggling. 
It seems if they could get the assistance that they needed, 
they could handle El Shabab. And I just wonder if either one of 
you might want to handle that.
    But, Mr. Gast, I will ask you about Djibouti and its 
assistance, development assistance. And even there is a 
question--I might as well throw it in--that South Sudan was 
also cut in an account as it deals with development. Now there 
could have been reshuffling or reintegrated funds, but what we 
saw looked as though there was not and increase but there was a 
reduction in development assistance for South Sudan as they try 
to prepare for the possibility of becoming a new nation.
    Okay. I took 12 minutes. So we will have the responses, and 
then I will yield to my colleague.
    Ambassador Carson. Mr. Chairman, thank you very much for 
those three questions, very good. And I did hear your 
commentary about Ethiopia, and would be willing at some point 
to talk in more detail about that. But let me just talk about 
Djibouti for a second. Djibouti indeed is a very close partner 
and friend of the United States, and we value that partnership 
and that friendship.
    U.S. development assistance for Djibouti is approximately 
$11 million, and it probably represents something of a small 
decrease from where it has been in the past. But looking at the 
development assistance relationship between Djibouti and the 
United States gives a very false impression of the very large 
amount of assistance that the United States gives to Djibouti. 
As you are aware, we have an access agreement with the 
Government of Djibouti, and that access agreement entitles 
Djibouti to receive $31 million every year from the department 
of Defense. And most of that money is earmarked for development 
assistance projects inside of Djibouti and also for 
infrastructure projects.
    So looking at the $11 million doesn't tell the entire 
story. And looking at the $31 million doesn't tell the entire 
story as well because every time a U.S. Air Force plane lands 
at Djibouti, every time a U.S. Air Force plane overnights at 
Djibouti, the Government of Djibouti collects a substantial 
royalty or rental fee for those use of airport facilities.
    So I think it is substantially greater than the $11 
million, $11 million plus $31 million plus every time there is 
a flight in or out of there, and every time we have planes 
overnighting on the ground. So it is substantially greater than 
that. And on a per capita basis, the number really sort of 
soars, and it is one of the highest recipients of U.S. 
assistance on a per capita basis if you figure both of those 
in.
    My colleague may have another comment on that, on the 
Djibouti, but I can come back to the other two questions. Do 
you want----
    Mr. Gast. So we are trying to divide up the work here. So 
let me just finish on Djibouti. And Ambassador Carson is 
absolutely right. If one were to look at the ratio of foreign 
assistance per capita, it is one of the highest rates in the 
world, actually.
    But we have a very good relationship and partnership with 
the government. We are increasing the number of AID officers in 
Djibouti. And actually, if one were to look at the funding 
levels last year and compare it to 2010, there is actually a 
significant increase in funding of about 48 percent. So that 
demonstrates the strong commitment that we have to Djibouti.
    Ambassador Carson. Mr. Chairman, with respect to the TFG, 
the United States strongly supports the Djibouti process. It 
supports the TFG, and it supports AMASOM. The United States has 
been over the last 1\1/2\ years the largest single contributor 
to the AMASOM presence in Somalia. We have contributed probably 
in excess of $150 million for that AMASOM presence.
    We have also been a very strong supporter of the TFG. We 
have provided assistance, which we have reported both to the 
Congress and to the United Nations Sanctions Committee. We have 
provided assistance that has helped train their troops, 
provision their troops with non-lethal equipment, and to 
provide them with communications equipment. We do this in 
support of their effort to fight El Shabab extremists who are 
in Southern Somalia.
    I think that it is wrong to say that if we only gave them 
just a bit more, that they would succeed. I think the ability 
of the TFG to absorb assistance is also a limiting factor. They 
have to go out and recruit troops in order to be trained. They 
have to be able to provide those troops with food, pay, and 
barracks once they go back. I think that we have given 
assistance up to the ability of the TFG to absorb it 
effectively and utilize it in a way that will help them.
    In fact we give them too much, it leads to them perhaps 
using what they get inefficiently, selling of weapons, boots, 
shoes, and other things like that. We are giving them a fair 
amount. We will continue to support them, as we have done over 
the last year. We want also to make it clear that what we are 
doing is in a supporting role, not a leading role. This effort 
is an African-led effort. This is something that has been 
endorsed by the regional body, EGAD, the East African 
community, endorsed by all of the states in the region, with 
the exception of Eritrea. It is endorsed by the AU. It is also 
endorsed by the Arab League.
    South Sudan is more an economic question. I will let Earl 
speak to that if he wants to. I can as well. But it is more 
his----
    Mr. Gast. Sure, absolutely. And let me just go back to our 
support to the TFG. The Ambassador mentioned our assistance on 
the security side. We also support them in building their 
capacity to deliver services, which are vitally important to 
the people, primarily right now in Mogadishu.
    We have actually supported the Djibouti process through a 
large grant through UNDP, and UNDP has also contracted, if you 
will, to provide direct capacity support services to the TFG. 
What we have recognized is that we needed new instruments, 
additional instruments, to support the TFG. And in the last 6 
months, we have initiated two new instruments supporting the 
TFG in carrying out services to people in Mogadishu, building 
capacity at the same time that people get services.
    With regard to Southern Sudan, I think you are absolutely 
right in your assessment that it is a numbers game, if you 
will, because our commitment is still very strong to the South 
and to Sudan. There is a temporary, if you will, a 1-year bump-
up in funding in 2009 to support the referenda processes that 
will soon get underway. But if you look at historical levels, 
they have actually increased slightly.
    One of our objectives, U.S. Government objectives, working 
within the interagency, is to multilateralize the support to 
the South. We have been the principal provider of development 
assistance, and we are now trying to get more actors engaged 
and contribute more funding.
    Mr. Payne. Thank you very much. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your testimony again. And just let me ask--I am going to 
ask a series of questions, and then please as best you can 
answer those.
    Given Eritrea's support for El Shabab, a State Department-
designated foreign terrorist organization, will the Secretary 
designate Eritrea as a state sponsor of terrorism? Secondly, I 
read recently, today, a letter that was sent out by CDC to all 
the ARV implementing partners, and it says in sum that the 
money, the expected funding, in 2011 and 2010, each partner 
should be expected to have a flat lined budget for ARV 
procurement and should not be exceeded. Then it goes on to talk 
about how monies will have to be gleaned from somewhere else 
other than the PEPFAR program.
    Given the fact that there is a significant bump-up in the 
Global Health Initiative, ARVs have literally saved the lives 
of--in Uganda alone, the letter includes 100,000 HIV-infected 
Ugandans. It seems to me that putting a tourniquet on that will 
mean possible death for others who can't get the ARVs. Is there 
an attempt to redirect funding to those programs so that these 
lifesaving chemicals and cocktails can be provided to these 
people? Please answer that.
    Next, on Nigeria's President Umaru Yar'Adua, have we raised 
the issue, especially the health crisis that he is facing? If 
you could answer that, and the jamming of Voice of America. As 
I said, I was late getting here because I am ranking member on 
the China Executive Committee. When I chaired the Human Rights 
Committee for this Congress for 8 years--as a matter of fact, I 
say parenthetically that Mr. Payne and I used to be the only 
two going late into the evening at those hearings--we had 27 
hearings on China. And when Africa and Global Human Rights were 
combined, we had three hearings on the issue of what China is 
doing in terms of bad governance, jamming capabilities like 
VOA, as Ethiopia is doing now, sham elections, and the use of 
secret police to ensure that the despotic or authoritarian or 
dictatorial regime stays in power.
    I think, Ambassador Carson, that you mentioned the 
democratic recession. I think it was you who said that. How 
much of that slide can be attributed to indigenous forces 
versus how much of that is being enabled and inspired by the 
bad influence of Beijing? We know when Chairman Payne held 
hearings on the genocide Olympics and the fact that Sudan has 
been so profoundly and negatively influenced by Beijing, but 
other countries too are catching the bad infection, if you 
will.
    I know that when it comes to child limitation, there was an 
invite 2 years ago, and most of the countries of sub-Saharan 
Africa took the bait and went to the Beijing, and with the 
state family planning and the UNFPA hosting this conference, 
sold the false dogma that if you want economic prosperity you 
need to limit children, as if children are nothing but a drag 
rather than an addition to an economy.
    I would note parenthetically that last week, the Economist 
carried--and I have been saying this for 30 years, 30 years, 
that because of forced abortion in China and the singling out 
of girls, that there would be a huge disparity over time. And 
there was the Economist, hardly a right-wing, conservative 
magazine--I read it every week, it has wonderful stories. It 
was entitled ``Gendercide: The Missing 100 Million Girls.''
    Now that model is being focused on and transported over to 
Africa. Paul Kagame, in his country, the President of Rwanda, 
came back from that conference and said, we need a three-child 
per couple policy if we want to imitate the PRC. Well, the PRC 
has such an aging problem now. Economically, they are about--
you know, you could predict when their economic fall will take 
place because of this huge age disparity, not only missing 
girls, but also missing children.
    Adding to that, they are becoming a Mecca, a magnet for 
human trafficking the likes of which we will never see again if 
it could ever be reversed. But what I am raising is that this 
bad governance model is being exported to Africa. And, you 
know, so if you could speak to that, you know, guns for oil 
would--high value minerals and materials, as I said before, 
sham elections. They are learning the bad rather than the good 
from real democracies like ourselves.
    Finally, on the issue of peacekeepers and misdeeds, 
atrocities committed against the people they are there to 
protect, particularly sexual exploitation. I was in Goma in 
January 2008 and met with the peacekeepers, and obviously also 
met with people living there. I went to several health 
facilities, but also met with the OIOS investigators, one of 
whom took me for a walk away from the facility and said, ``If 
the OIOS investigators''--and he was the head of it--``leave 
here, the exploitation of children will be exacerbated, and 
will increase, because you will not have an independent 
monitoring body there on the ground.''
    And I have raised this with the previous administration, 
and I raise it again with you because it has gone on unabated. 
The OIOS individuals have been redeployed to Nairobi. Only one 
is in Goma. And if I am a 13-year-old child who has just been 
abused by a peacekeeper, to whom do I go. You know, if this 
independent body is not there to help me and to help me bring 
an action against a peacekeeper, who has in this case raped or 
abused me in some other way. I think that is so fatally flawed. 
And he told me on our walk that this will mean impunity will 
reign. And so I ask you what you think of that, whether or not 
this administration--because I have raised it now half a dozen 
times--will do anything to try to change it.
    Ambassador Carson. Congressman Smith, you have raised a 
number of questions. I am going to give, if I can, rather quick 
answers to all of them. I would be glad to provide fuller 
explanations if required. Some of these--there are a couple of 
these that probably my colleague may want to answer with 
respect to the healthcare questions.
    The first question about El Shabab receiving support from 
Eritrea and whether Eritrea should in fact be a state sponsor 
of terrorism, and whether we are contemplating that. There is 
no doubt that El Shabab is a terrorist organization. There is 
no doubt that Eritrea has supported the elements of El Shabab. 
There is no contemplation or thinking at this moment of 
labeling Eritrea a state sponsor of terrorism.
    Your third question was about the lawyer, Mr. Birtukan. I 
mentioned earlier that when I was in Ethiopia approximately 3 
weeks ago, I went with Prime Minister Meles. I raised the issue 
of Mrs. Birtukan. One of my deputies was in Ethiopia last week. 
The issue was raised again. This is something that is clearly 
on our radar screen. As I said, this continuation of this issue 
gives Ethiopia a bad image. We will continue to engage and 
discuss with Ethiopia about issues of democracy and human 
rights, as we should, as we do with many countries across the 
continent.
    Your fourth question was on the jamming of VOA by the 
Ethiopian Government. That has two things, and I want to be 
very clear about it. It is deeply unfortunate that the 
Ethiopian Government has chosen to jam VOA signals. As we all 
know, there are only two or three countries in the world that 
actively announce that they are jamming our signals. One of 
those is North Korea, the other is Iran. We accept the fact 
that the Ethiopian Government has disagreements with the 
Amharic service of the VOA. Ethiopian officials have mentioned 
this to me on several occasions, and we have discussed this 
with Voice of America because the last thing we want to do is 
to have a station letting out information which is false or 
inaccurate. So it has been raised, and it is a concern. But we 
still are very distressed about their decision to jam VOA.
    But what distresses me even more is the second part of the 
statement that was made, a comparison of VOA to Radio Mille 
Collines. In deed, Radio Mille Collines was the voice of the 
AMASASU, the hammer of the Rwandan Government back in 1994 that 
resulted in the genocide of nearly 900,000 Rwandans. To compare 
VOA with Radio Mille Collines is extraordinarily distressing, 
extraordinarily distressing. It is something that is not 
acceptable. This is not a comparison that should ever be made. 
VOA has never done anything similar to Radio Mille Collines.
    So there is a concern that we have. We raise it very 
clearly. We have said it very clear. It is that second part 
that is really very, very troubling to all of those who sell 
that statement and who read it.
    China and good governance in Africa. I am going to say that 
Africa has indeed made very, very good strides in the field of 
democratization, especially since the collapse of the Berlin 
Wall in 1989 and the collapse of the Soviet Union in 1991, we 
have seen tremendous strides in democratization across the 
continent. There is no doubt that much work remains to be done 
in this area. I do not believe that the politics, the domestic 
politics of Africa, are being influenced at this point by 
China.
    I think that China no doubt is an aggressive economic 
player on the continent. But there were military coups and bad 
governments in Africa prior to the reengagement of China in 
Africa a decade ago. I think that there are enough people in 
Africa doing both right and wrong, and they don't need outside 
influences to steer them in either direction.
    The last question you raised about U.N. peacekeepers and 
the OIOS investigators. I think that without speaking for them, 
the last two secretary-general special representatives in the 
Congo have been seized with the issue of U.N. peacekeepers 
sexually violating minors and others. I know that it was a 
concern for Ambassador Bill Swing when he was the special 
representative. It is a concern of Alan Doss, who is the 
current special representative out there.
    We continue to press the U.N. aggressively to act against 
any U.N. peacekeepers, any U.N. peacekeeping units that are 
engaged in sexual exploitation of children. As the chairman 
pointed out last August, he was with the Secretary, I was with 
the Secretary when we went to Goma. This continues to be an 
issue of concern to us. I think that the numbers are down. I 
will go back and look and see what we have on record, but I 
think the numbers are down because we have made it an issue 
with Alan Doss. We have made it an issue with General Gaye, who 
is the force commander out there.
    This is something that is unacceptable by U.N. 
peacekeepers, and should be unacceptable on the behalf of the 
Congolese military as well.
    Mr. Smith. Ambassador, would you yield on that point very 
briefly? The problem that I have is that without OIOS people 
there, we may not know if it is down or up or at ebb tide. Why 
would a young person necessarily feel any freedom to go to army 
personnel--I mean, the army is doing terrible things. I mean, 
there are a lot of bad actors here, and certainly the 
peacekeepers have done more than their fair share of these 
exploitations.
    So, you know, by redeploying them out--and again, I got my 
insight while there, but especially by talking to the OIOS 
people themselves who said, ``Please, don't let us be 
redeployed.''
    Ambassador Carson. If I could, Congressman Smith, say that 
one of the things that we have been doing very, very intensely 
is informing people working with NGOs in the region, Congolese 
NGOs, international NGOs, international organizations that are 
out there, working with Congolese women's groups, working with 
citizens there, explaining their rights, encouraging them to 
let authorities know when these attacks are taking place, when 
these sexual assaults are taking place, to report them and to 
report them to a variety of people who can take action.
    It is one of the major campaigns that we have underway, is 
to increase the level of awareness, education, increase the 
cadre of individuals capable of prosecuting, helping to train 
more Congolese women police officers and soldiers so that women 
and young kids who are sexually exploited will in fact have 
someone that they know they can go to and trust and identify 
perpetrators of these kinds of offenses.
    We recognize the problem. We think it is an enormously 
serious one, and we are trying to take steps to do as much as 
we can to reign it in.
    Mr. Payne. Thank you.
    Mr. Smith. Real brief, ARTs.
    Mr. Payne. Oh, yes, ARTs.
    Mr. Gast. ARTs. Congressman Smith, I haven't seen the 
letter from CDC, so I am not aware if they sent out a 
directive, if you will, to some of their partners asking them 
to straight line the budget for ARV procurement. It could, 
however. I know it is a major push of the new administration to 
make the procurement of ARVs much more efficient, and therefore 
putting more people on ARVs by reducing the cost of treatment.
    Mr. Payne. Okay. Thank you very much. Mr. Meeks.
    Mr. Smith. Get back to us, please.
    Mr. Meeks. Thank you, Mr. Chairman. Good to see you, Mr. 
Gast and Mr. Ambassador. I recently have come and visited about 
eight countries in 14 days over the period of 6 months, and one 
of the things in looking at these countries and others that I 
would like to focus on is development of Africa and the various 
countries.
    It seems as though, as I spoke to a number of heads of 
states, they are concerned about their development, their 
capacity building so their people can have jobs and creating an 
economy. And, you know, I was participating in that along with 
some of the other things that I think that have been talked 
about, but they often have said that when you look at what the 
United States, and they are very thankful, especially in aid 
that we give with reference to HIV and other areas. But they 
don't see as much participation or the additional participation 
in regards to the overall economic development, the growth of 
businesses, the growth of making sure we maximize, for example, 
AGOA and going to AGOA II, so that they can feel a difference 
and they can begin to move forward with their folks in a much 
more progressive way.
    One gave the example, you know, we are a nation of just, 
you know, a couple of--10, 20, 25 years old, and ask where was 
the United States when it was 10, 25 years old, and, you know, 
they need some room to grow. Not talking about those countries 
because we did see some, and we tried to make sure we went to 
some--those that were good as far as democracies are concerned 
and some that were bad. But I want to focus on those that are 
trying to make those leaps positive.
    In that regard, I want to focus two of my questions 
around--because I believe a lot in the regional aspects of it, 
but two things that are going on, and ask--one is in South 
Africa. And as you know, South Africa is one of the few 
countries on the continent of Africa to rank as an upper middle 
income country. And to me, that is a remarkable status, given 
the fact that it was just over 15 years ago that the South 
African majority gained its independence, which is what I am 
talking about, a relatively new democracy, from white minority 
rule under apartheid. And I believe that we should support the 
Republic of South Africa's efforts to grow, and in so doing 
continue its role as a regional power and actively promote 
regional peace and stability.
    But there has been much discussion lately about a potential 
$3.5 <greek-l>dollar  deg.World Bank loan to ESCOM for the so-
called super critical coal-fired power plant in South Africa, 
including also some $750 million for wind and solar power 
investments. I am concerned that in the discussion the 
significant development impacts the impeding energy crisis in 
South Africa's role as an economic engine of the entire region 
has been and/or can be lost.
    It is also worth noting that this would be the first super 
critical coal plant on the continent using far cleaner 
technology than many plants in operation in the United States, 
and even cleaner than some plants currently that are under 
development in the United States. So I was wondering, could you 
speak to this and whether the United States will support this 
project in South Africa, which is critically needed for them as 
far as energy is concerned, et cetera. That is in South Africa.
    The other question then would be dealing with Nigeria. You 
know, and I thank you, Mr. Ambassador, for the time that you 
spent with in discussing the development issues in Nigeria in 
particular. But given what has currently taken place in Nigeria 
with the risk that key governance reforms could move backwards 
given that there is a transition or seems to be a transition in 
the government right now, could you tell me your feelings of 
what is taking place in Nigeria? Does it look like it will be a 
smooth transition? I know that recently all the cabinet members 
were shaken up, and so I would like to have that.
    And the last country that I wanted to have a brief 
discussion about is--I think I have some of the answers because 
I was talking to the distinguished chair, who is the most 
knowledgeable man that I know on the continent and about the 
continent, and that is dealing with Senegal. And I know that 
the President has--you know, there has not been, for example, 
any military coups or anything of that nature in Senegal. And I 
see there is a lot of investors that are still interested in 
investing there. And then yet you hear some concern because I 
guess the President is going to run for re-election, and he is 
83 years old. Could you just give me your feelings on where we 
are with reference to Senegal? Because I think they are 
important also being that they have not had any military coups 
and have been an example of which individuals we are looking 
at.
    Mr. Gast. You make some very excellent points, Congressman. 
And if you don't mind, what I would like to do is focus on your 
questions concerning development, economic development, in 
Africa. The administration is putting as its top priority, one 
of its top priorities, the integrated development, an 
integrated development approach to Africa to reduce imbalances 
in funding and also imbalances in approach.
    As Ambassador Carson mentioned in his opening statement, 
approximately 70 percent of families in Africa are dependent on 
agriculture in one way or another. With the food security 
initiative and also with our general increase in economic 
development resources, we are doubling the amount of resources 
from 2009 to 2010 in economic development. And that will allow 
us to do some of the things that we had done in the past that 
proved to be successful. And that includes working with 
governments to create a pro-business environment, the 
regulatory environment, the policies and laws.
    It is to create demand for reforms among civil society as 
well as private sector organizations. That will go hand in hand 
with the support that we are going to be providing on 
increasing agricultural markets, both in-country as well as on 
a regional basis, as well as the support that we will be 
providing in agriculture on increasing production.
    So I think that is something that this administration 
should be very proud of, and I think we will be seeing some 
very positive results. And I would say that with the exception 
of last year, there has been sustained economic growth of about 
5\1/2\ to 6 percent on the continent, and this is something 
that we can build on.
    Moving on to South Africa, you mentioned the $3.5 billion 
coal fired plant that the government is proposing. I think it 
would add some 3,400 megawatts to the grid. There is a power 
shortage there. However, at this point, I don't know what the 
position is of the U.S. Government with regard to voting at the 
World Bank board.
    Mr. Meeks. Could you check and maybe get back to us just to 
let us know?
    Mr. Gast. Sure.
    Mr. Meeks. Just so that you know, I will be sending a 
letter, and I was trying to get several members to sign on and 
sending it to the administration strongly supporting it.
    Ambassador Carson. Congressman Meeks, let me come in on the 
issue of the coal-fired plant, which has indeed attracted a 
great deal of attention. And as my colleague, Mr. Gast, has 
pointed out, this plant would in fact provide a huge input into 
the South African grid. The position of the U.S. Government as 
respect to how we are going to vote on that issue has not been 
determined yet, and it is a matter of internal discussion as we 
sit here. We certainly will talk to our colleagues at State who 
deal with financial issues, business issues, and also with our 
colleagues at Treasury. And once a decision has been made, we 
will certainly share that decision with you and communicate it.
    You also asked two other questions about Nigeria and about 
Senegal. In short, there has been a great deal of political 
uncertainty in Nigeria since the middle of November, when 
President Yar'Adua became ill and had to leave the country for 
medical attention in Saudi Arabia. Approximately 3 weeks ago, 
President Yar'Adua came back to Nigeria. But certainly over the 
last 120 days, President Yar'Adua has not been seen in public 
and has not been seen by many of the seniors members of his 
government. Probably his wife and only a very small number of 
people other than his doctors and caretakers, caregivers have 
seen him.
    This produced a great deal of uncertainty about the 
leadership of the country. The Senate and the House of 
Representatives in Nigeria took steps to elevate the Vice 
President, Goodluck Jonathan, to the position of acting 
President, where he has attempted over the last 30 days to 
bring a level of stability and leadership to Nigeria that has 
been missing as a result of the unfortunate of the President.
    Last week, he dismissed the cabinet of the country, some 41 
individuals. We hear that within the next 24 to 48 hours that a 
new cabinet will be nominated for approval by the Nigerian 
senate. We expect that approximately half of the previous 
members of the cabinet will be reappointed, some of them to 
different positions. New members will also be added to the 
cabinet.
    Nigeria will continue to go through a period of uncertainty 
as long as the President of the country remains ill, and 
probably up until some time next year, May 2011, when the next 
Presidential elections are scheduled to be held in that 
country. We think that Acting President Goodluck Jonathan was 
elevated to his current position with unanimous agreement of 
both the Nigerian lower and upper house, as well as the 
unanimous support of all of the country's 36 elected governors.
    As I say, the country will continue to experience some 
political uncertainty as a result of the President's absence 
and illness, but we hope that Nigeria will build on the 10 
years of democracy that we have seen there. It is important, as 
I said in my testimony, that Nigeria reform and improve its 
electoral laws in order to be able to hold elections that 
people are confident in. It is important that the government 
continue to move in the fight against corruption in that 
country. It is important that they deal with the sectarian 
violence that has occurred in Jos, and clearly it is important 
that they continue the program of amnesty and reconciliation in 
the Niger Delta.
    These are all critical issues for a country that is 
absolutely critical, most of all to its citizens, but to the 
region and to the global community. Nigeria, along with South 
Africa, are the two most important countries in sub-Saharan 
Africa. It is an extraordinarily important country. We need to 
give it full attention 24 hours a day.
    Senegal--a quick question. President Wade was here in town 
on Monday and Tuesday. Senegal has been America's strongest 
francophone-speaking partner in Africa, not just last week or 
last year, but since its independence some 50 years ago. We 
want and encourage Senegal's leaders, including President Wade, 
to build on the democracy and the democratic institutions that 
exist in the country today. We do not want it to move 
backwards. It is important that all of those impositions of 
power in Senegal continue to strengthen and build and carry on 
that democratic legacy.
    Too many countries in West Africa are both fragile and 
weak, and have been subject to military interventions or to 
extra civilian usurpation of power. It is important that 
Senegal continues to move forward. So as I say, it is a strong 
partner. Last year, President Wade was at the State Department 
with Secretary of State Hillary Clinton. The U.S. Government 
provided some $540 million in one of the largest MCC grants 
that we have given in support of that country.
    It is our hope that Senegal will continue to be a beacon of 
democracy and will continue to move forward on its economic 
growth. But that is dependent upon the continued good 
leadership which is required for that, that continued good 
leadership.
    Mr. Payne. Thank you. And will now hear from Mr. Royce. But 
I want to also say that I have met with the South African 
delegation regarding the coal plant, and they assured me it 
will be the latest technology. They also have renewable energy 
that is a part of the loan--and I concur that I believe that it 
is necessary to move forward. You know, we are trying to keep 
the environment clean, but actually Africa has done the least 
to dirty the environment, and they are really hit the hardest, 
not that we want to see any increase. However, I think that 
should certainly be kept in mind, and I have also mentioned it 
to some of our leadership, that I think we should support the 
U.S. to have a position in support of the loan. Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. Ambassador, it has been 
good working with you over the years. I have maybe three items 
I would like to bring up and get your input on. One is going to 
be Joseph Kony. The second is going to be some more specifics 
or concerns that I have about Senegal. And the last is 
commercial diplomacy.
    But first, let me say, we had a hearing in December with 
Special Envoy Gration for this subcommittee, and I asked him 
about the links between Joseph Kony's LRA and the Sudanese 
regime. At that time, there were reports of an LRA commander 
who had surrendered, and he told of the LRA's efforts to link 
with Sudanese armed forces. General Gration denied that there 
were links.
    Earlier this month, based on on-the-ground information, a 
report by an NGO, which is John Prendergast's Enough Project--
it is a pretty reliable organization. They reported that a 
contingent of the Lord's Resistance Army had taken refuge in 
areas of south Darfur controlled by the regime in Khartoum. We 
know from the past that Kony had gotten ammunition. He had sent 
his soldiers north when they were wounded to be treated by the 
Sudanese. And, of course, both Kony and Bashir are both wanted 
war criminals. What is your assessment there?
    Ambassador Carson. Congressman Royce, thank you very much. 
With respect to Joseph Kony, there is no doubt that earlier--
and I mean much earlier than now--there were very credible 
reports of Sudanese support for the LRA. But over the last 2 
years, we have not seen, I have not seen, credible reports 
indicating a linkage between the LRA and the Sudanese 
Government.
    What we have heard and seen are things that are very, very 
fragmentary and circumstantial. As near as we can tell, the LRA 
over the last 18 months has been significantly degraded as a 
fighting organization. Many of its top commanders have been 
captured or killed, and the larger organization that comprised 
the LRA has been fragmented into very, very small groups. Those 
groups have moved from the Garamba force in the northern part 
of the Congo up into the Central African Republic and have 
occasionally been inside of South Sudan. And it is my 
impression that today the fragmentary elements of the LRA are 
in the Central African Republic.
    We do have reporting from our embassy in Bangui based on 
credible missionary sources of the most recent LRA attacks, and 
those are in the Central African Republic, and not in the 
Darfur region.
    Now I will go back and look and take a look very closely. I 
know John Prendergast. I have an enormous amount of respect for 
him as an individual and a professional, and we read the Enough 
Project material. But I cannot substantiate it. As I say, my 
system has him in the CAR and not in the Darfur region. I have 
to say that Kony has been as elusive to the Ugandan military as 
Osama bin Laden has been to allied operations in the Afghan-
Pakistan area. Very, very difficult terrain that he is 
operating in, very difficult to go after him. The Ugandans have 
made a real effort, but it has been pretty difficult.
    Mr. Royce. Well, John, the concern I have, though, when we 
go into Darfur and Sudan, the guy that is on the ground to show 
you around is John Prendergast. And his organization, the 
Enough Project, really seems to have a handle on a lot of 
information. I met with him this morning on some other issues 
regarding Kony and some of these challenges with Darfur. But I 
think if they file a report that there is a contingent of the 
LRA that has taken refuge there in an area controlled by the 
regime, let us make sure that Sudan doesn't give this 
organization room to breathe, because in the past it has. And 
so this is one thing I really think that sometimes the guy on 
the ground who lives and breathes this, you know, has access to 
information that we may not have.
    And I would also like to discuss the Millennium Challenge 
Corporation. You mentioned Senegal and the $0.5 billion that it 
received. It was a lot of money, and there are problems with 
Senegal, as you have pointed out. People don't talk about it 
the way they once did. It used to be that we would look at this 
as an impressive African model. And I think now we have seen a 
Presidential payment to an IMF official, North Korean-built 
statue that the President has a personal financial interest in, 
and, of course, concerns about corruption throughout the 
government.
    There is also a commercial dispute involving a United 
States telecommunications investment there, I guess. So the MCC 
acknowledges that there are many red flags, but, you know, as 
far as I can tell, the MCC hasn't come to you and asked that 
you weigh in on its concerns about Senegal's drift away from 
transparency or issues like its involvement with the North 
Korean regime. And I wish the MCC would be more proactive on 
that. But I was going to ask you if you could look into some of 
the issues, Ambassador Carson. I know the Secretary chaired an 
MCC board meeting this morning. Given the red flags on Senegal, 
was that on the agenda? Did that come up, and can we do more on 
that front?
    Ambassador Carson. Congressman Royce, I am not sure whether 
the Secretary chaired the board meeting or not, or whether in 
fact there was a board meeting today. And as far as I am aware, 
if Senegal was on the agenda, I am not aware of it. But I will 
find out whether the Secretary was there, whether it was on the 
agenda, and what the discussion was, and come back to you on 
that.
    Mr. Royce. Thank you, Ambassador Carson. Let me just finish 
with my last question, if I could, and that is on commercial 
diplomacy. We have had several conversations about this in the 
past. Our posts simply must get more engaged in helping U.S. 
businesses that get entrapped by local corruption and other 
government snafus. I mentioned Senegal and there are growing 
concerns about Ghana, which is another MCC country. And the 
concern I have is that a model sort of develops here that, 
rather than helps with the long-term development of Africa, 
undercuts it. What are we doing to give our Ambassadors the 
tools, and frankly the incentive, to fight for fair treatment, 
as if those Ambassadors of ours had something on the line, had 
something at stake in this effort to try to make progress on 
this corruption front?
    Ambassador Carson. Corruption is a problem in many parts of 
the world, and it is a special problem in many parts of Africa. 
The tools that we employ are well-known and universal. If 
American companies are seen to be engaged in corrupt practices 
overseas, we use the Foreign Corrupt Practices Act to prosecute 
them in the United States. Equally, when we see that American 
companies are the victims of corrupt practices overseas, our 
Ambassadors and our senior officers, our commercial officers, 
are requested and required to go out and serve as advocates for 
them to ensure that they get a fair hearing and that their 
cases are dealt with in an equitable fashion.
    But we also have another tool at our disposal as well, and 
we can in fact impose visa sanctions on individuals from 
foreign countries, including in Africa, who are engaged in 
systematic corrupt practices that we are aware of and have 
sufficient evidence to ensure that we are identifying the right 
individuals. And we have in fact prevented individuals who have 
been engaged in corruption in Africa from receiving U.S. visas, 
not only the individuals, but their spouses and their children 
as well. So there are instruments. We do use them. And we 
actually use them quite a bit more than is seen in the general 
public.
    Mr. Royce. I appreciate that it is not just some officials 
in Africa. It is China in a big way, too, in Africa, and now 
with this Senegal example, North Korea has developed a 
relationship with a financial interest for the President of 
Senegal. It is a complicated problem, but we want to make sure 
our State Department officials on the ground have the resources 
they need. And again, Ambassador Carson, thank you for your 
great work for this country, and hopefully your continued work 
to help the developing world. Thank you very much.
    Mr. Payne. Well, I had to tell--the ranking member wanted 
to have another round. I said we will have to allow the first 
panel to leave. But you can see the tremendous amount of 
interest that we have. There are dozens of more questions I 
certainly would have liked to have asked, as well as the rest 
of the team. But let me thank you for your patience and for the 
wealth of information that you have given us. We look forward 
to working closely with you. We can see there is a tremendous 
amount of interest from the turnout that we had here, and 
people still being here. And so we will stay in communication, 
and if we have some additional questions, we will have 5 days 
to get them to you. Thank you all very much for appearing.
    We will now have our second panel. We will ask that 
Ambassador Princeton Lyman, Mr. Almami Cyllah, Witney 
Schneidman, and Gregory Simpkins come foward. I am going to 
start reading your bios right now.
    [Pause]
    Mr. Payne. We will now have our second panel. Our second 
panel will consist of four persons. I will read their 
background information. Many of you are no strangers to us. 
Actually, none of you are strangers to us. But we will start 
with Ambassador Lyman, who is an adjunct senior fellow at the 
Council on Foreign Relations and currently adjunct professor at 
Georgetown University. During his time at the Council on 
Foreign Relations, he served as the Ralph Bunche Senior Fellow 
and Director of Africa Policy Studies.
    Ambassador Lyman has an extensive career in diplomacy, 
which includes two ambassadorships in Nigeria and South Africa 
and served as Deputy Assistant Secretary of State and the 
Director of the Department of State's refugee program. 
Ambassador Lyman has published work in the Wall Street Journal, 
Washington Post, and in 2002, he released his book, Partner to 
History: The U.S. Role in South Africa's Transition to 
Democracy. He holds a doctorate of philosophy and political 
science from Harvard University, and he has been the U.S. 
Ambassador to Nigeria and South Africa, as I already mentioned.
    Second, we have Mr. Almami Cyllah. Mr. Cyllah is currently 
the regional director for Africa at the International 
Foundation for Electoral Systems (IFES). Mr. Cyllah has worked 
with IFES for the past 9 years serving as country director for 
both Haiti from 2001 to 2005, and Liberia from 2006 to 2009. 
Before joining IFES, Mr. Cyllah served as country director for 
Haiti and Kenya at the National Democratic Institute, where he 
directed USAID funded programs with civil and governmental 
entities, served as African Affairs Director at the American 
International USA in Washington, DC, and has participated in 
election monitoring specifically as an election commission for 
national electoral commission in Sierra Leone.
    In 1980, Mr. Cyllah received his bachelor of arts in 
international affairs and politics from Catholic University of 
America. He has also published several articles in the Africa 
Report, the Washington Post, and Christian Science Monitor.
    Following Mr. Cyllah, we will hear from Dr. Witney 
Schneidman, president of Schneidman and Associates 
International. Dr. Schneidman has worked with previous 
administrations. Most recently, he served as co-chair of the 
Africa Experts Group on the foreign policy advisory team, and a 
member of the Presidential transitional team for President 
Obama's 2008 campaign. During the Clinton administration, Dr. 
Schneidman served as Deputy Assistant Secretary of State for 
African Affairs, where he managed economic and commercial 
issues in sub-Saharan Africa.
    Dr. Schneidman is the author of Engaging Africa: Washington 
and the Fall of Portugal's Colonial Empire and A Ten-Year 
Strategy for Increasing Capital Flows to Africa: A Joint Effort 
by the Corporate Council on Africa, and issued the commission 
on capital flow to Africa.
    Dr. Schneidman holds a doctorate of philosophy and 
international relations from the University of Southern 
California, and has commented extensively on relevant issues on 
CBS News, CNN, and BBC.
    Finally, we have our own Gregory Simpkins, who is, as you 
know, Vice President in Policy and Program Development at the 
Leon Sullivan Foundation. Mr. Simpkins had been involved in 
democratization trade and capacity building programs since 
1992, and he began work on foreign advocacy projects in 1987. 
He has extensive experience in election monitoring and training 
in sub-Saharan Africa, including the elections process in 
Kenya, South Africa, and Guinea. Mr. Simpkins has worked with 
the U.S. House of Representatives, serving as a professional 
staff member for the Subcommittee on Africa, Global Human 
Rights, and International Operations under then Chairman Smith 
from 2005 to 2006, and in 1997 and 1998, for the Subcommittee 
on Africa. He has testified in both congressional chambers on 
trade preference reform and human rights in Africa.
    Mr. Simpkins was also instrumental in establishing a number 
of advocacy networks, including the Africa Democracy network 
and the U.S. Civil Society Coalition for African Trade and 
Investment. Mr. Simpkins maintains ``Africa Rising 2010,'' a 
blog exploring current African issues.
    Thank you very much, gentlemen, and we will start with 
Ambassador Lyman.

 STATEMENT OF THE HONORABLE PRINCETON N. LYMAN, ADJUNCT SENIOR 
FELLOW FOR AFRICA POLICY STUDIES, COUNCIL ON FOREIGN RELATIONS 
 (FORMER UNITED STATES AMBASSADOR TO SOUTH AFRICA AND NIGERIA)

    Ambassador Lyman. Thank you for this hearing and the 
opportunity to testify. Let me start with just a few remarks on 
overall policy. We have heard a lot of that discussion. But as 
you can tell from the discussion, this administration, the 
Obama administration, has been very proactive in its policy in 
Africa. In addition to the things that have been mentioned, I 
would say that was demonstrated by strong and very timely 
statements on Nigeria during this recent crisis by the 
Secretary and coordinated with our European allies; also the 
denial of visas to people in Kenya suspected of corruption; the 
appointment of the presidential envoy for Sudan and a State 
Department envoy for the Great Lakes; and the decision by the 
Secretary to establish binational commissions with Angola, 
Nigeria, and South Africa. These are all commendable steps. And 
as you mentioned, Mr. Chairman, Mr. Gast talked about two new 
initiatives in development, food security and global health.
    President Obama further set the tone of his administration 
on his trip to Ghana that this administration would emphasize 
good governance and democracy in its relations with Africa, and 
Secretary of State Clinton reiterated that in her trip across 
the continent. Nevertheless, the administration faces several 
serious obstacles in carrying out these objectives. The civil 
war in Somalia, which you mentioned, Mr. Chairman, which links 
to worldwide terrorist concerns, drags on, and without any easy 
solution, and too few alternative strategies being developed.
    The peace process in Sudan is fragile, and the slow process 
of staffing in USAID has prevented the administration from 
moving very far or very fast on these two new development 
initiatives. The low level of staffing in the Africa Bureau, 
which Ambassador Carson is trying to redress, is going to make 
it too difficult to staff those three new binational 
commissions because they take a lot of work and a lot of time, 
and they are very important.
    And finally, I would mention the increased threat of drug 
trafficking through Africa and an alarming linkage of drug 
trafficking, terrorist groups, traditional smugglers, and the 
corruption that goes with that, which is a very dangerous 
phenomena in West Africa, not only for Guinea and Guinea-
Bissau, but Ghana, Senegal and other countries.
    But perhaps less well understood is that even as U.S. 
assistance to Africa has tripled over the past decade, our 
leverage from that assistance has diminished. By that, I mean 
that the largest share of our assistance to Africa, now 80 
percent of it, is in life-saving programs, HIV/AIDS, child 
survival, emergency food. These are very commendable programs, 
and we can be proud of them. But these are not the kind of aid 
that you can turn off or cut back on, even when recipient 
countries flout principles of democracy or human rights. And I 
think we are going to see this dilemma as we face those issues 
in Ethiopia, Uganda, Nigeria, and elsewhere.
    Finally, Mr. Chairman, I would emphasize the need for a 
more comprehensive trade policy in Africa. In brief, despite 
AGOA, aid for trade, and related U.S. support for Africa's 
trade capacity, African countries side with China, India, and 
Brazil in the DOHA trade negotiations against the position of 
the United States. Meanwhile, the European Union undermines the 
promising development of Africa's regional economic commissions 
and hurts U.S. trading opportunities with its proposed Economic 
Partnership Agreements (EPAs). There has been no effective 
response from the U.S. We could discuss that more.
    Let me comment very briefly on the country situations that 
you asked me to comment on. South Africa. The administration is 
making very good progress on improving what had been a strained 
relationship with South Africa under former President Thabo 
Mbeki. President Zuma has reversed the positions that he took 
and that Mbeki took on AIDS, which is a big step forward.
    However, there is concern in South Africa over a drift in 
economic policy, over the President's refusal there to abide by 
requirements for reporting his financial holdings, and holding 
other officials to similar account, and worries over the 
erosion of independence of the national prosecutor and the 
judiciary.
    On the positive side, just last week, President Zuma spent 
3 days in Zimbabwe, high-level, in intensive negotiations, 
which have resolved some of the issues in that country's 
government of unity.
    On Nigeria, very quickly, you know the crisis, and we have 
talked about it. But let me just say that beyond the crisis, 
there are underlying problems in Nigeria. And perhaps the 
biggest danger in Nigeria is the danger of becoming irrelevant 
in all of the areas that we think Nigeria is important. For 
example, Nigeria is well-regarded as a major oil producer, but 
failing to develop and resolve key policies in oil and gas 
arrangements could prevent the investment that Nigeria needs to 
double its output, while at the same time, other countries, 
Ghana, Uganda, Brazil, others are increasing their production. 
Nigeria could become just another producer, not one of the 
major ones.
    Perhaps more serious, failure to develop its own 
infrastructure, power supplies, railroads, et cetera, means 
that factories are closing, people are becoming unemployed. 
There is a serious problem in the elite commitment to the 
serious problems that Nigeria faces. Now the binational 
commission offers us an opportunity, but I hope we go beyond 
just our laundry list of things we want. Assistant Secretary 
Johnnie Carson has certainly referred to them, e.g., electoral 
reform. But I hope we go into the commission with some positive 
proposals on public-private partnerships to help develop the 
infrastructure and mobilize the capital, using the Food 
Security Initiative to revive Nigerian agriculture, and that we 
go on through public diplomacy, engage the Nigerian business 
community and civil society in supporting these efforts.
    Ethiopia--you have talked about that. It is a conundrum. 
Ethiopia is a valuable ally in our counterterrorism program. It 
is becoming one of Africa's most populous and influential 
countries. China, India, Saudi Arabia, and other countries are 
investing there. Companies from all over the world searching 
for oil and minerals are crawling all over the country. But for 
all of the reasons you have discussed, both you and Mr. Smith, 
we are seeing a regression in democracy and a violation of 
human rights, et cetera.
    Now here is the problem. What I said earlier about 
leverage, Ethiopia is one of the major recipients of U.S. aid 
to Africa, but 84 percent of that aid is HIV/AIDS, child 
survival, and emergency food. There is no room for playing with 
these programs for political purposes, and Prime Minister Meles 
knows it.
    The U.S. can only hope to persuade Ethiopian leaders that 
it is ultimately in their interest to foster once again 
democratic government and find ways to address demands in the 
Ogaden and elsewhere. But as to our leverage, strangely enough, 
the more we do in these very important areas may actually be 
diminishing.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lyman 
follows:]Lyman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Payne. Thank you very much. Mr. Cyllah.

 STATEMENT OF MR. ALMAMI CYLLAH, REGIONAL DIRECTOR FOR AFRICA, 
         INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Cyllah. Mr. Chairman, on behalf of the International 
Foundation for Electoral Systems, IFES, I wish to thank you, 
your colleagues, and your staff for holding this hearing today. 
It could not have come at a more opportune time. Nearly 20 
countries in Africa are holding elections in 2010. We have 
included in our region statement to you those elections that 
are scheduled for this year in Africa.
    As you know, IFES is the premiere organization providing 
professional support to electoral democracy. Since its founding 
in 1987, IFES has worked in more than 100 countries around the 
world, striving to promote citizen participation, transparency, 
and accountability in political life and civil society.
    Democracy, Mr. Chairman, and governance work, in my 
opinion, is the foundation on which all other aspects of U.S. 
foreign policy in Africa can be built. If you have a country 
with a strong democratic institution, I believe that provision 
of aid will be more effective, violence will be less common, 
and human rights will be more respected. Mr. Chairman, the 
right to vote is enshrined in the Universal Declaration of 
Human Rights. If governments are accountable to their own 
people through elections, everyone will benefit.
    Mr. Chairman, when an election in Africa draws 
international attention, it is very seldom good news. For 
example, elections in Kenya fueled violence that left more than 
1,500 people dead and about 300 people displaced, while 
elections in Zimbabwe suffered from massive fraud and brutal 
abuse. In Sierra Leone and Ghana, on the other hands, the 
tense, highly contested elections did not generate into 
violence. These elections have become historical landmarks 
instead for their credibility and peacefulness.
    Many countries that experience field elections such as 
Kenya and Zimbabwe share a number of similarities. The 
incumbents in these countries exploited their positions of 
power for material gain and ran for re-election. Years of 
misrule, however, give rise to a popular and determined 
opposition. To prevent themselves from losing power to the 
opposition, the incumbents compromised the independence of the 
electoral commissions and the sanctity of the electoral 
process. The extremely close result in Zimbabwe led to a brutal 
government crackdown, while that in Kenya also led to a 
widespread violence.
    Mr. Chairman, let me quickly point out that this violence, 
when you talk to the citizens of those countries, the citizens 
are always calling for more transparency of elections and not 
to abandon electoral democracy. An impartial and professional 
electoral management body could have prevented this violence or 
at least reduced its likelihood. Sierra Leone and Ghana share 
many of the opposite characteristics leading to successful 
elections in both countries. The Presidents of Sierra Leone and 
Ghana could not run for another term, so the incumbents had no 
direct stake in the election.
    Moreover, the electoral commissions, who are relatively 
independent, enjoy the support and engagement of the various 
stakeholders and demonstrated their capacity to run elections. 
As a result, the electoral commissions were able to conduct 
relatively good elections resulting in those two cases peaceful 
transfer of power.
    What are some of the lessons learned from these difficult 
and successful elections? Some of the lessons learned, Mr. 
Chairman, are electoral fraud and interference are less likely 
when an electoral management body is, one, independent in 
budget, tenure, and opinion; professional and capable of 
effectively implementing a credible electoral process; support 
by the various stakeholders. When attention is focused on the 
electoral management body and effective implementation of the 
electoral process, it is more likely that the process will run 
its course without significant intervention.
    When an incumbent is running for re-election, and the 
electoral management body lacks independence, the process is 
more likely to be manipulated. Where poverty is widespread, 
when leaders flaunt their ill-gotten wealth, the opposition can 
mount effective mobilization. Where the population is polarized 
by antagonistic mobilization of support, elections are more 
likely to be rigged in favor of the incumbent, with a very high 
probability of electoral violence. Where the electoral disputes 
resolution mechanism is robust, aggrieved parties will be less 
likely to resort to violence.
    Mr. Chairman, IFES has a few recommendations to you as 
policymakers and to the administration. These recommendations, 
Mr. Chairman, are very simple: Provide assistance throughout 
the electoral process because elections do not begin and end on 
Election Day. Elections, just like democracy, are a process, 
but not an event. If any state of the electoral cycle is 
ignored or manipulated, the entire process could fall apart. 
Thinking in long-term and providing strategical systems 
contributes to much more successful and peaceful elections.
    Some of the other recommendations, Mr. Chairman, include, 
first, special attention should be paid to how electoral 
management bodies are appointed in Africa. Second, during the 
registration process, assistance should be given to the 
electoral management body to clearly and fairly define 
procedures. Third, during the campaign period, assistance 
should be given to the electoral management body to establish 
binding campaign codes of conduct along with the legal power to 
enforce them. Fourth, throughout the process, the electoral 
management body must be helped to develop and carry out 
effective civic and voter education. Fifth, electoral 
management bodies must be assisted and accredited in domestic 
and international observers. Sixth, assistance must be given to 
the electoral management body to establish an impartial and 
effective dispute resolution system prior to the elections.
    Finally, Mr. Chairman, countries should not be stripped of 
the electoral assistance after conducting a series of 
successful elections. This is particularly true as elections 
have become closer and more contentious in recent years. While 
this represents a welcome spread of multiparty democracy, it 
also represents an increasing risk of conflict. Kenya has made 
this painfully clear. Even countries such as Ghana and South 
Africa, however, which are viewed as bastions of democracy in 
Africa, should not be written off in terms of assistance. 
Assistance could help these countries further consolidate their 
democratic gains and assume a greater leadership role in the 
continent.
    Mr. Chairman, I thank you very much for holding this 
hearing, and I look forward to questions. Thank you.
    [The prepared statement of Mr. Cyllah 
follows:]Cyllah 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Payne. Thank you. Dr. Schneidman.

STATEMENT OF WITNEY W. SCHNEIDMAN, PH.D., PRESIDENT, SCHNEIDMAN 
                   & ASSOCIATES INTERNATIONAL

    Mr. Schneidman. Chairman Payne and Ranking Member Smith, 
thank you for inviting me to testify at this important hearing 
and timely hearing on U.S. policy toward Africa.
    One of the most important issues on the African continent 
is the relative poverty of the nearly 1 billion people who live 
there. It is critical to realize that while conditions in many 
of the 53 nations are simply unacceptable, vital progress is 
being made. One of the most important trends is the slowing 
rate at which people are falling into absolute poverty in sub-
Saharan Africa.
    From 1980 until 2000, an average of 10 million people 
annually fell below the poverty line. Between 2000 and the 
onset of the global economic recession in 2008, there was a 
virtual plateau in the number of people entering poverty in 
Africa. In fact, there were 1.2 million fewer people living in 
poverty in 2005 than there were in 2002, which suggests that 
Africa is poised to enter a new era of growth, productivity, 
and opportunity.
    Mr. Chairman, it is against this background that I would 
like to respond to the issues that you asked me to address, and 
to make several suggestions on how the administration, 
Congress, U.S. companies, and civil society might build on 
these important trends. The African Growth and Opportunity Act 
continues to be the essential framework for U.S.-African 
economic and commercial relations. Nevertheless, in the 10 
years since it was passed into law, its promise as a stimulus 
to the creation of light industrial manufacturing and job 
creation remains to be fulfilled. My recommendation therefore 
is to have Congress provide an exemption from U.S. taxation for 
bona fide foreign direct investment income earned by U.S. 
companies outside of the extractive sectors doing manufacturing 
or service business in any AGOA-eligible country.
    This would be a great stimulus for American investment in 
Africa and would contribute to growth domestically by 
encouraging companies to repatriate capital to the U.S. It is 
also estimated that for every dollar deferred under this 
arrangement, there would be an additional $5 of African income 
produced. The administration is to be congratulated for its 
effort to create binational commissions with Nigeria, South 
Africa, and Angola. If structured correctly, these commissions 
can make a genuine contribution to the deepening of relations 
and enhancing specific objectives.
    In each commission, however, I would urge that there be a 
finance working group to consist of representatives from Ex-IM, 
OPIC, TDA, and the U.S. private sector and appropriate 
individuals from the partner nations. Not only would this 
increase the impact of the commissions, but it would provide 
invaluable support to American companies seeking to enter or 
expand in Africa's most significant markets.
    Regional economic integration is at the forefront of 
Africa's development agenda, and it should have more priority 
on our own agenda for the region. To help achieve this, I would 
recommend that the assistant secretaries at State for Africa 
and Business and Economics, the assistant administrator for 
Africa at USAID, and the assistant trade representative for 
Africa meet as a group on a regular basis with the heads of the 
regional economic commissions in Africa, along with the 
Economic Commission for Africa at the African Union and the 
African Development Bank. Such a mechanism would be low-cost, 
and it would contribute more focus for U.S. support for 
regional economic integration and market development.
    Candidate Barack Obama was right to say that his 
administration would make the millennium development goals 
America's development goals. The reality for sub-Saharan 
Africa, however, is that a number of countries will fall short 
in a number of areas in meeting the 2015 deadline set by the 
international community. For one, there is a financing gap of 
an estimated $20 billion a year on aid to Africa. The immediate 
question for the Obama administration, therefore, is how will 
it respond to those countries who do not meet the MDGs.
    Of course, we cannot wait until 2015 for the answer. We 
need to begin planning for the inevitable now. It is vital that 
the State Department's Quadrennial Diplomacy and Development 
Review and the Strategic Development Review being drafted in 
the White House provide clear direction to this most important 
question.
    On the issue of education, school enrollment in Africa is 
among the lowest in the world. African governments and Africa's 
partners need to invest more resources in education at all 
levels on the continent. The President's African Education 
Initiative, which allocates $600 million to benefit 80 million 
children through scholarships, textbooks, and teacher training 
programs, is an important beginning. But we have to do more, 
and do it with urgency. And this is why I support the African 
Higher Education Expansion and Improvement Act of 2009 that 
will provide Africa with long-term assistance to improve the 
capacity of its institutions of higher education through 
partnerships with institutions of higher education in the 
United States. Hopefully, this bill will pass in this session 
of Congress.
    Let me close by underscoring the need for a concerted 
effort by the public and private sectors to work together to 
enhance mutual interests. Over the last several years, I have 
been involved with the Africa, China, U.S. trilateral dialogue 
established to explore ways in which the United States and 
China can work in common effort in support of African's 
development objectives. This unique initiative is the 
collaboration of the Leon H. Sullivan Foundation, the Council 
on Foreign Relations, the Brenthurst Foundation in South 
Africa, and the Chinese Academy of Social Sciences in Beijing.
    Last month in Liberia, we had the fourth meeting of the 
trilateral dialogue, and it focused on corporate social 
responsibility and economic development. Participants included 
President Sirleaf of Liberia, former President John Kufuor of 
Ghana, the U.S. Ambassadors to Liberia the United States and 
China, and representatives from Chevron, Coca-Cola, Marathon 
Oil, DeBeers, Fina Bank, the China-Africa Development Fund, the 
China Export-Import Bank, and the China-Henan International 
Group, which has infrastructure projects in eight African 
countries.
    All participants agree that corporate social responsibility 
targets must be a clearly stated part of all contracts that 
governments negotiate. Moreover, it was apparent that companies 
contributing to health, education, and job creation need to be 
part of the national dialogue on development goals, and that it 
is up to government to monitor compliance. We feel that the 
trilateral dialogue has a great deal of potential to enhance 
U.S.-Chinese cooperation in Africa, and would encourage the 
Obama administration and the Chinese Government, in conjunction 
with the African Union, to establish a similar mechanism.
    Mr. Chairman, thank you once again for holding this very 
important hearing and asking me to be part of it.
    [The prepared statement of Mr. Schneidman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Payne. Well, thank you very much for your contribution. 
Thank you. Mr. Simpkins.

STATEMENT OF MR. GREGORY B. SIMPKINS, VICE PRESIDENT, POLICY & 
      PROGRAM DEVELOPMENT, THE LEON H. SULLIVAN FOUNDATION

    Mr. Simpkins. I would like to thank subcommittee Chairman 
Payne and Ranking Member Smith for allowing me to testify 
today, and I appreciated my time working with you both and look 
forward to supporting your initiatives for Africa's 
development.
    The Leon H. Sullivan Foundation has had a longstanding 
interest in U.S. policy toward Africa. We led a civil society 
coalition in 2008 that issued a questionnaire on Africa policy 
to the Presidential candidates. I am happy to say that our 
current President and Vice President were the first to answer 
that questionnaire. And we presented a white paper on our 
Government's Africa policy shortly after the election of 
President Obama in 2008, and we are about to launch a survey on 
the views of our stakeholders on American Africa policy that 
will be shared this September at our Africa Policy Forum at the 
Sullivan Global Reunion in Atlanta.
    I also am policy committee chair of the African-American 
Unity Caucus, a coalition of dozens of organizations that focus 
on the various aspects of our policy toward Africa. Every 
September, during the Ronald H. Brown African Affairs series, 
our members present forums on important Africa issues facing 
our Government.
    Certainly, we expect President Obama to continue the 
growing engagement with Africa that his immediate predecessors 
championed and take America's relationship to Africa to a new 
level.
    Unfortunately, this administration faces crises that 
distract from longer-term planning and implementation of 
development policy for Africa. There are countries in Africa 
with active violence, such as Somalia, Sudan, and the 
Democratic Republic of Congo, or others with simmering 
tensions, including Guinea, Cote d'Ivoire, Nigeria, Kenya, 
Uganda, Ethiopia, South Africa, and Zimbabwe.
    Meanwhile, there are long-term issues that also must figure 
into American policy. Good governance, enhancing agricultural 
production, food security, stemming the tide of disease, 
raising the level of education, stemming the impact of the 
brain drain, and many other issues pose a challenge in 
executing an effective Africa policy. In selecting policy 
options, the Leon H. Sullivan Foundation has developed 
recommendations for the administration and congressional 
actions that include, one, effective diplomacy in conjunction 
with regional African organizations to address warfare, lack of 
governance, and piracy involving Somalia, Guinea, and other 
troubled countries; two, multilevel strategies to identify and 
implement a lasting solution to the complex problems in Sudan 
and the Democratic Republic of Congo and their longstanding 
warfare and violence, and in some cases genocide; three, 
American security assistance and U.S. Government and private 
sector support for more effective programs in communities in 
Nigeria, Angola, and other oil-producing African countries; 
four, diplomatic and programmatic attention to simmering crises 
in Kenya, Ethiopia, South Africa, and other African countries 
facing internal turmoil before these tensions overflow; five, 
consensus among African and African Diaspora leaders on dealing 
forthrightly with the regime in Zimbabwe.
    And I would like to at this point acknowledge the 
chairman's intervention in Zimbabwe to support respect for 
democratic governance. It is much appreciated.
    Sixth, U.S. Government assistance and American private 
sector investment in all forms of infrastructure in Africa in 
order to make AGOA more practically effective; seven, 
encouragement of business-to-business linkages between African 
and American small and medium enterprises for AGOA to be more 
broadly implemented; eight, effective rules for how to proceed 
in the fight against corruption in Africa, as well as a 
stepped-up U.S. effort to facilitate the return of stolen funds 
to repay debts and address unmet social needs; nine, elevation 
of the importance of U.S.-Africa agricultural trade, capacity 
building assistance for African producers, and encouragement 
for investment by Americans in African agriculture; ten, 
enhanced support for distance learning and student and teacher 
exchanges, as well as encouragement of the involvement of 
members of the African Diaspora in America in diminishing the 
impact of Africa's brain drain, especially in the health 
sector; eleven, stronger endorsement for effective corporate 
social responsibility practices as embodied in the Global 
Sullivan Principles for Corporate Social Responsibility, which 
is part of the trilateral dialogue that Mr. Schneidman talked 
about; and finally, continued empowerment of women and youth 
through African civil society organizations and the enhancement 
of the capacity of civil society organizations themselves.
    Thank you again for this opportunity to testify.
    [The prepared statement of Mr. Simpkins follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Payne. Thank you very much. And let me thank you all of 
you for your testimony. Let me begin with you, Ambassador 
Lyman. Since you were an Ambassador both to South Africa and 
Nigeria--of course, South Africa elections are over, but with 
Nigeria's coming up--in your opinion, how do you rate the 
democracy and civic involvement in both Nigeria and South 
Africa today as opposed to when you were Ambassador in those 
countries? In other words, do you feel that there has been 
progress overall when you look back, or would you say there has 
been a decline in those two very important, most important, 
countries on the continent?
    Ambassador Lyman. Thank you, Mr. Chairman. Let me start 
with Nigeria. I think the sad thing about Nigeria after the 
return to civilian rule in 1999, which gave everybody, 
especially the Nigerians, a great deal of hope--the elections 
got steadily worse. In 1999, it was no great shakes; in 2003, 
it was worse, and in 2007 worse than that. It is because the 
focus was more on amassing winning votes and less on improving 
the process. There is a fundamental problem in Nigeria that 
Nigerians identify, and that is loyalty is up, not down. That 
is, you get your job by the party picking you, and then you do 
whatever it takes to get elected. And then you don't have to 
collect taxes because your largesse comes from the center 
through the oil revenues, which are distributed, which you then 
use for patronage.
    It is not a good system for solving these underlying 
problems of Nigeria, which I mentioned. I think that the 
remedies are very clear. They have had studies on what to do 
about electoral reform. They have had studies on how to develop 
the delta. I think everybody in Nigeria knows that the ethnic 
violence we have seen is also competition for land and 
resources, and it is also manipulated by political leaders.
    Everybody, I think, knows where the solutions are. The 
question is how do you get the elite to act with much more 
foresight and long-term commitment to Nigeria? I think that is 
going to be a difficult thing to do. I think we can encourage 
it. Civil society, ironically, in Nigeria is very active, more 
active than when I was there for sure, and there are lots of 
institutions operating, but they haven't really had an impact. 
And the business community, ironically, doesn't--it presses for 
better economic policy, but it stays out of politics. It 
doesn't press for greater governance and democracy. And that, I 
think, is something we ought to engage the community on.
    There is a lot of dynamism in Nigeria, as you well know, 
Mr. Chairman. But I think they are at a very critical stage, 
that as I suggested in my testimony, Nigeria could slip ever 
downward if they don't grasp these fundamental problems. They 
are going to have to start with electoral reform, and they 
don't have much time before the next election, and then they 
have got to move from there in many ways.
    In South Africa, I think there has been a lot of progress 
in the sense that the institutions of democracy and the 
constitution have held up fairly well. The courts have been 
strong, particularly the constitutional court. Elections have 
been carried out reasonably well. There is freedom of the 
press, et cetera. What is disappointing is that because it is 
almost a one-party state, because the ANC is so dominant, that 
the dynamism, the new ideas, and the ethics have to come from 
the ANC. And I think they have slipped on all three.
    There is a good deal of corruption, and much of it is 
covered up. There is not cohesion on economic policy. There is 
not efficiency in the administration. These are worrisome 
trends. I don't think it is in crisis mode, but I do think 
there is going to have to be some revitalization of commitment. 
Perhaps there is some serious, serious thinking within the ANC 
and outside of it as to how they get back to some of those 
exciting principles that we all felt in the 1990s.
    Here again the United States can be very encouraging. We 
have a very dynamic team now in South Africa. But we have to 
engage a lot of people. We have to encourage a lot of 
discussion on these areas. Again, there is an active civil 
society. There is an outspoken opposition in the Parliament. 
But until the ANC starts to reform itself, there are going to 
be some serious problems.
    Mr. Payne. Thank you very much. Well, since you hit the big 
two, maybe you can just make a comment about Ethiopia and their 
upcoming election.
    Ambassador Lyman. Well, as I stated, it is a real 
conundrum. Here is a very important country, very important to 
our strategy in East Africa, very important in security 
matters, increasingly influential, other countries investing in 
the country, a very shrewd and smart leader. And on the other 
hand, as we heard already today, increasingly more oppression, 
more arresting of people, control of the press, nastiness 
toward American institutions like the VOA. Very disturbing. And 
the question is, what do we do in that kind of a situation? And 
as I suggested, the aid program doesn't give you that kind of 
leverage.
    This aid is lifesaving. It is wonderful. But 84 percent of 
it is keeping people alive. You can't say, well, you are not 
having clean elections, we are going to cut back on ARV 
treatments for HIV/AIDS victims. You can't do that. So we have 
to find another way to bring our influence to bear. But I think 
we have to recognize that we have limited influence under these 
circumstances. And I think it is a serious problem in our 
relations with Ethiopia.
    I do think that voices have to come even from outside the 
administration because the administration is caught in this 
conundrum--they have got all these security and other issues--
voices in Congress, voices from the press, et cetera, to say, 
as Ambassador Carson himself said, these things question 
Ethiopia's reputation and its position in the world. I think 
those are the kinds of things that may help. But I suggest this 
is a serious, serious dilemma.
    Mr. Payne. Thank you. Let us see. Mr. Cyllah, we have seen 
that 50 years ago, there were a number of elections that were 
held--I don't know, maybe 10 or 12, that will be celebrating 50 
years this year. Absent the three that we have heard and 
mentioned, could you give me an assessment on the, say, two or 
three other elections that would be coming up this year, and 
how do you think their previous elections were, and how do you 
anticipate the upcoming 2010 elections.
    Mr. Cyllah. Thank you, Mr. Chairman. One of the things we 
have noticed is that, of course, we don't have the 90 percent, 
98 percent win anymore where the one party moves. So there is 
quite an improvement in Africa. But a country like Burundi is 
an interesting one to look at this year, which in the past also 
having been a military, one-party dictatorial government is 
moving toward the democratic reign. Difficulties, yes, but do 
we stop support? I would say no because I think every little 
bitty step that they do take toward democracy is important. We 
have seen Burundi evolve, a lot of women in the process, which 
changes a whole lot of things in that part of the world, so as 
in Rwanda.
    But at the same time, we have to continue to hold these 
leaders accountable and ready to answer questions. As I would 
say, listen to them, but also verify as to what they are 
telling you because they want you to hear what they think you 
want to hear. Basically, that is how they will bring it to you.
    Elections--of course, this has been mentioned quite a bit. 
Sudan is going to be having elections. So these are some of 
those elections that we need to pay close attention to. Once 
again, the important thing for us is that one of the 
difficulties we have had over the years, Mr. Chairman, is that 
support to elections have come right close to the elections. 
Support to election process is more so the event that we see, 
and failing to look at the whole process.
    There is an electoral cycle. Pre-election processes are 
just as important as Election Day. Post-election processes are 
just as important. I think it was one American leader who had 
said that preparations for the next elections begin the day 
after you announce the results of the last elections. We have 
not seen that happen in Africa in a consistent way. And I think 
that is what my recommendation had been, for us to look at 
elections as an election cycle rather than looking at elections 
as the event.
    So a long-term process in those elections support I think 
will help. And again, there are so many other countries that we 
have on this list. It is maybe a little too late to provide 
that electoral cycle support, but for other elections upcoming, 
I would recommend that you as policymakers and the U.S. 
administration look at that very important.
    Mr. Payne. Thank you. Just one other quick question. There 
is a new phenomenon going on now, at least that started in 
several countries. I think Togo, Gabon, and the Democratic 
Republic of the Congo are three countries that the children of 
the previous ruler have come in, although some are just recent, 
certainly Gabon. But do you see any potential for better 
governance with the second generation coming in? I know it is a 
U.S. phenomenon where families tend to get into politics, and 
the Middle East also, I guess, Morocco and some other. Egypt it 
seems like is in waiting. Syria has sons replacing their 
parents.
    Have you seen any kind of improvement, or do you have 
optimism that the second generation may have learned from the 
previous generation? Is that a good trend? Of course, we have 
had the Roosevelts and the Kennedys and the Bushes in the U.S. 
So you can't say you can't have it. I just wonder what your 
opinion might be.
    Mr. Cyllah. Well, Mr. Chairman, that is a very good 
question. And the point for me and the point for our 
organization is whether the process went well and whether the 
people who are going to be ruled by these people accept those 
results. We see in Togo, for an example, that there is not an 
acceptance, and following as indeed the son I think is going to 
be a little better than his father, from all the brutalities 
that his father committed. We see the opposition really 
critical of what those results have been, and there are still 
demonstrations, and that we have not seen the massive arrests 
that his father used to do when he saw an opposition.
    Congo--it is a wait and see also. But the President, I 
think, is not going to be able to follow in his father's 
footsteps because I think there is a lot of opposition. And 
people are pretty much talking to each other, and they see the 
results of those bad governments and what it has done to their 
citizens.
    You did not mention one other country that is quite 
interest to us, and that is Senegal. There is also the talk 
that----
    Mr. Payne. That is true.
    Mr. Cyllah [continuing]. That the President is also 
grooming his son to become President. Once again, the important 
thing is we follow the real process of having electoral 
democracy. If that is the case, and if the results show that, 
yes, they are winning, then, yes, I think we will accept that. 
But if they have the military and they are going around abusing 
people, I think it is a wrong step that they will be taking. 
And I doubt if they will be successful for a long time. It is 
never sustainable, Mr. Chairman.
    Ambassador Lyman. I had a point on that, Congressman. I 
attended a conference up in Cambridge recently sponsored by the 
Africa Business Club of the Harvard Business School. I went up 
there thinking there would be about 50 or 60 young people to 
talk to. There were 900 people at that conference. I would say 
70 to 80 percent were Diaspora Africans, mostly from Nigeria, 
but from everywhere. And these were young people studying in 
business schools, law schools, colleges all over, bright and 
sharp as anybody you have ever met, asking tough questions of 
business leaders, et cetera. It was very inspiring and moving. 
And the question is, are they going to have an opportunity to 
do the things they were talking about this conference, whether 
it was investment or changes, et cetera, in their home 
countries?
    They wanted to do it. So that was the whole purpose of the 
conference. And if there is hope for change and positive 
change, it comes from that generation. It was a very, very 
impressive experience.
    Mr. Payne. That is very interesting, and I did think in 
terms of Senegal, too. I guess for some of the countries, it 
may be a little easier than the others for the son to do 
better, you know. I will leave it at that.
    Let me ask my final question, and then I will turn it over. 
Dr. Schneidman, what is your assessment of the administration's 
Global Food Security Initiative? Do you feel that the impact 
for agricultural development in Africa is key? Or if a failure 
happens, what would the position be for famine or lack of 
adequate food security? Could you touch on that whole area of 
this initiative of the Obama administration?
    Mr. Schneidman. Thank you, Mr. Chairman, for that question, 
which is really quite a critical question. You know, this thing 
in talking with Ambassador Carson and others, one gets the 
impression that the Obama administration is looking at the Food 
Security Initiative much like the Bush administration looked at 
PEPFAR, much like the Clinton administration looked at AGOA. We 
haven't seen it--I haven't seen it happen yet, and I am 
concerned about this. I am concerned, number one, that the 
leadership is in the Department of Agriculture. No aspersions 
against the Department of Agriculture whatsoever, but I think 
one knows that the way you drive policy is really from the 
White House, certainly the State Department, and I haven't seen 
that interagency team emerge yet to give this initiative the 
definition that it requires.
    Secondly, addressing the issue of food security is a 
multifaceted proposition. Not only are we talking about seeds 
and irrigation, but we are talking about trade. We are talking 
about farm to market. We are talking about roads, 
infrastructures. So I am concerned here in the early days that 
the initiative has not been defined well enough, and the 
leadership is not yet clear enough.
    Mr. Payne. Yes, Mr. Simpkins.
    Mr. Simpkins. The coalitions that I work with are focusing 
on the administration's food security policy. As my colleague 
just said, it is very complex. As you recall, when the 
Secretary announced it, she talked about seven distinct parts. 
They are not all integrated with one another. We want to work 
with the administration to make this work because we know how 
important it is. It is just going to be very difficult, and we 
haven't yet seen a real action plan for how to live this out.
    And we are hoping that the Congress, particularly the 
House, will help with that because I think--no offense to my 
colleagues from the State Department--a lot of the policy comes 
from the Congress. And in this case, I think that the bills 
have been introduced--I think Ms. McCollum has a bill. In the 
Senate, they have bill. I think working with those, we have at 
least some starting point to make this happen.
    Mr. Payne. Thank you. Thank you very much. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. I want to 
thank our panel for your testimony and leadership, and to the 
long stayers in the audience who have been very patient as we 
have voted and asked our questions.
    Just let me begin. Ambassador Lyman, you, like Ambassador 
Johnnie Carson, who talked about many believing that some 
African countries have reached a plateau--and he used the term 
a ``democratic recession.'' You talked about stalled and in 
some cases regressing democracy. And I am wondering if our 
other panelists first and foremost think that too is an apt 
description of, you know, the macro view of sub-Saharan Africa.
    Secondly, on the issue of trafficking, back in 1998, I 
introduced the Trafficking Victims Protection Act. It took 2 
years to get it passed. There was an enormous amount of 
indifference, not overt and outright opposition, but 
indifference to enacting the bill. When I would talk about 
trafficking, even domestically, I would talk to U.S. attorneys, 
and they would say, ``Oh, you mean drug trafficking.'' I mean, 
that was the immediate go-to concept that they had. They didn't 
seem to understand that there was this explosion of human 
trafficking, sex and labor trafficking.
    It took 2 years to get the bill passed. And then about a 
year or so for the Bush administration--and, Mr. Chairman, you 
might recall--because when it comes to human rights, there 
can't be any partisanship--I chaired a hearing in this room in 
which we held the Bush administration to account for its very 
slow and tardy designation of the TIP office and the naming of 
the countries. The Trafficking in Persons report, which is now, 
as it ought to be, an annual event, and even more frequently if 
there are countries that go on or off the Tier list. But there 
was this sense of indifference that greatly appalled me.
    Well, we had some initial success among countries. There 
was a robust acceptance by some that, yeah, they needed to do 
something. I am happy to say that in this 2009 report, Nigeria 
is a Tier 1 country, as well as Mauritius. Nigeria more than 
doubled the number of trafficking offenders convicted and 
improved assistance to victims. Their NAPTIP office runs seven 
shelters. Two other shelters are run. I have visited some of 
those shelters in Abuja as well as in Lagos. They do a 
wonderful job on a shoestring budget. They are Tier 1.
    The sad story is the number of countries that have slipped 
over these last several years. There are now seven African 
countries--and we will get a new report, as we all know, in 
June--seven African countries on Tier 3, a dozen and a half on 
what we call the Watch List. That is the bubble. They can 
easily slip into Tier 3. A particular situation occurred this 
year. When we had the Haitian earthquake, Niger, which has some 
8,800 to 43,000 Nigerians living under conditions of judicial 
and hereditary slavery, according to the TIP report, has all 
kinds of problems with child prostitution. There are children 
being sold into sexual bondage. Money was taken out of the TIP 
work, Trafficking in Persons work, for Niger and put into the 
Haitian effort. And that was one of my questions that I meant 
to ask and will ask of the administration. When is it going 
back?
    But it seems to me it is quickly deprioritized when it 
comes to African countries. Again, if you look at the list, 
look at the map, there is an awful lot of red, you know, the 
designation of Tier 3, egregious violators. I am worried that 
this is slipping.
    I held hearings in this room on Mauritania. Mauritania 
still is a Tier 3 country due to slavery. Sudan is a slave 
country as well. I hope that all of you might speak to this 
festering sore of trafficking. Even when I was in Nigeria, a 
Tier 1 country, I learned to my shock and dismay that the Juju 
men put the fear of--and it is not God--into these women and 
young girls prior to their being trafficked into Europe, 
whether it be into Rome or anywhere else, for modern day 
slavery.
    So if you can speak to the issue, I don't think we are 
doing enough. And I think as the transfer of funds of Niger 
clearly underscores, there are other spigots of money that 
could have been tapped, in my opinion, in order to help the 
Haitian catastrophe.
    Secondly, or thirdly--and if you could answer these, I 
would really appreciate it--microcredit. Are we doing enough 
with regards to microcredit for Africa? Mr. Simpkins, I know 
you made a trip. It was on behalf of the committee. I couldn't 
join you because of votes in Zimbabwe. You spoke about Zimbabwe 
in your testimony. I remember you coming back with a 
devastating report about the scorched earth policy that Mugabe 
was following. And you also spoke in your testimony in terms of 
action, stronger endorsement for effective corporate social 
responsibility practices as embodied in the Global Sullivan 
Principles. Could you give us an update where all of that is? I 
mean, are the Sullivan principles being taken seriously?
    And finally--two finals--Paul Kagame, in the upcoming 
August elections--Mr. Cyllah, you might want to speak to this. 
Do you think the U.S. Government, especially with the 
deteriorating human rights situation there, is doing enough to 
make sure that that election truly is free and fair?
    And finally, I asked our previous panel about this ART 
implementing partners letter from CDC, which I find very 
disturbing, that were freezing the antiretroviral drugs that 
will be provided to those who are HIV positive. The letter says 
since 2003--this is the one that went to Uganda, and we are 
trying to track down the ones that went to the other partners:

        ``Since 2003, the President's Emergency Plan for AIDS 
        Relief has successfully provided chronic lifesaving 
        treatment to more than 100,000 HIV-infected Ugandans. 
        The U.S. Government recognizes that in the coming 
        years, the number of patients in need of antiretroviral 
        treatment will increase dramatically. While the U.S. 
        Government is committed to continuing treatment for 
        those already enrolled, funding for HIV programs is not 
        expected to increase in the near future.''

    In the next paragraph, they talk about, ``Each partner 
should expect to have a flat line budget for ARV.'' That to me 
will be a death sentence to huge numbers of people who will 
need this lifesaving drug. Your thoughts on that, because I 
think we need to push back on that one.
    Ambassador Lyman. Well, let me speak to a couple of the 
issues you raised, Congressman, very serious ones indeed. The 
trafficking in people is a terrible issue, and you can say it 
is part of poverty, et cetera, but it is really part of 
criminality. And some countries, as you point out, have made 
progress, when it is publicized, when people react to it and 
realize what is happening. Other governments are weak or don't 
care enough. I think you in the Congress have put a spotlight 
on this, which makes a difference because it really is terrible 
exploitation.
    My guess is, although I am no expert, that you are getting 
links between the various criminality groups, the groups that 
traffic people, the groups that traffic drugs contraband, et 
cetera. Building up capacity in Africa to deal with this I 
think is extremely important.
    I would also point to one other thing that has not been 
emphasized strongly enough, and that is the role of the Africa 
Union in this regard and the sub-regional groups because these 
are cross-border problems. And you need to develop cooperation 
across borders among these groups. And I think that may need a 
lot more attention in order to get at this problem and to 
strengthen the cooperation amongst security services.
    Mr. Smith. If you could yield on that briefly. Also, on the 
protection side, the cooperation of faith-based organizations.
    Ambassador Lyman. Yes.
    Mr. Smith. Which, if mobilized, can be a prevention tool 
and a----
    Ambassador Lyman. Absolutely. I don't know about these 
letters on that freezing, but it touches on a big issue that 
has to be faced, not only the United States but the world. We 
have made tremendous progress under PEPFAR in going from--what 
is it--100,000 people to 4 million people now worldwide on 
these drugs. The future, as you know, is that there are 40 
million people in the world who are infected. Eventually, all 
of them will need treatment at some point. And therefore, that 
rising curve is something that we in the G8 and others have to 
think about. How do we do this? How do we carry this? Who will 
be responsible, as you say, for people's lives every day? And I 
am not sure what is behind the letter, but I do think that we 
have to start to think about how we plan ahead, how we finance 
this, how it doesn't eat up all of the other financing of 
things we need, but doesn't run into the problems you 
mentioned.
    I haven't heard about that letter, and I will certainly 
want to look into it myself. But I think we are going to face 
this question more and more. As we get more successful, and 
then we say, well, now we have got to go to 6 million, 8 
million, 10 million, et cetera--I think it is an issue worth 
watching very closely.
    Mr. Schneidman. Congressman Smith, let me respond quickly 
to three of the issues that you raised. The first is the notion 
of a democratic recession in Africa. My first reaction to 
hearing my colleague, Mr. Cyllah, talk about 20 countries who 
are going to have elections this year in Africa doesn't strike 
me as much of a recession. But I think more fundamentally, I 
think we have to be very careful about talking about Africa in 
broad brush strokes. With as many nations as there are on the 
continent, 53, some countries are doing better than others. 
Some countries do better at this election than they did the 
last one, or they will do better in the future. And I think the 
challenge to those of us who are partners with the continent, 
be it through civil society or government, is how to maximize 
the better outcome.
    I think Ambassador Lyman has described quite graphically 
and accurately the decline in the quality of elections in 
Nigeria. Having said that, maybe in Zimbabwe, you know, 
elections there, which have not been strong elections at all, 
actually can play a role in alleviating this crisis in the 
coming months and years, if we can get those elections right. 
So I think we have to guard against broad-brush generalizations 
and really talk about specific countries and what are the 
natures of the democratic challenges.
    Let me talk about trafficking in persons. I have had some 
experience. First, to applaud your initiative and your energy 
in bringing this to the forefront. In my work, I deal with 
American companies to help give them strategic advice in their 
investments in Africa. And I have dealt with some oil companies 
in Nigeria, Angola, and Equatorial Guinea, and in each one this 
has been a very important issue. And the companies take this 
very seriously. And the dynamic that happens is when the report 
comes or is about to come, the dialogue with the State 
Department increases quite dramatically, and with the embassy, 
and with the host governments. And it really helps to elevate 
the whole dialogue as it concerns the creation of shelters, as 
it concerns radio advertising, as it concerns posters. And it 
is not perfect by any stretch, but it certainly has the 
attention, I think, of critical stakeholders. And I can only 
encourage you to sort of continue your efforts because it is 
taken seriously by some of the companies that I work with. And 
I think it does have an impact on the ground, certainly in the 
dialogue between our embassies and the host governments.
    As for microcredit, I think a lot is going on there, and I 
think we have learned a lot, starting with the Gramene 
experience in Bangladesh and organizations like BRAC and 
others. And I think there is a consciousness about how to be 
effective with microcredit in Africa. We are seeing it not only 
in USAID, but a number of philanthropic initiatives as well.
    My concern, where there is a lack, is in small and medium 
enterprise sector. I developed the Liberia Enterprise 
Development Fund with Mr. Bob Johnson, who put up $3 million. 
We were able to leverage $23 million from OPIC. And that fund 
is now giving out loans in the area of $30,000 and $40,000 and 
$50,000 and $100,000, and this helps to create companies that 
can employ 10 and 15, 20, 50 people and that have real growth 
potential.
    My concern with the microcredit, as important as it is, it 
is really sustaining you for today. It is not really building 
for tomorrow. And I think we have to give better thought how 
the microcredit can link and grow into the SME level and how we 
address that SME level in a more systematic way across the 
continent because the appetite is so strong, and the 
environment is increasingly there for what I look at as 
enterprise-led development, where people want to start 
companies. They want to join companies, and they understand 
that the government is not an answer to their job search.
    Mr. Cyllah. Congressman, it is quite interesting the way 
you talk about the democracy plateau in Africa because I will 
say that looking at the organization I represent, we don't see 
a democracy plateau. We see a plateau in the support to the 
democratic process in the various African countries. And so I 
go to Dr. Schneidman. I think we have to take these countries 
one at a time and look at--if you look at Ghana for an example, 
before 1997, I mean, there was a leader who took all supreme 
court justices and shot them at the beach. But pressure mounted 
where he didn't change out of the goodness of his heart, but 
out of pressure.
    And so I think he later on developed a process where he 
felt he really did hand over power to a civilian government, 
and we are beginning to see a process in Ghana moving toward 
real democracy. But I think again, as I said, elections are not 
just the event, and the habit from the West has been we look at 
these elections a few months before the elections; we send 
observers. After the elections, they say, oh, these elections 
are really good. I can give you a good example--and this is 
again Ghana. I went on a pre-election assessment to Ghana, 
where after the assessment, we had a press conference where we 
were asked as to what we saw. We all said, yes, we saw a 
peaceful transfer; we saw a peaceful process going on. And one 
of the reporters asked me directly, where are you from, and I 
told him. And he said, many are from Sierra Leone; how can you 
come and tell us that this place is peaceful. Do you know the 
body language we use? Do you understand the language that we 
speak.
    So exactly, we don't. And I think we were just looking at 
the initial stages as we saw rather than looking at the 
process. If we had had the opportunity to be there long-term, 
we probably would have seen some of the violence or some of the 
undercurrents by the elections that maybe are upcoming. I think 
that is where we talk about having an election process being 
supported and an election cycle being supported rather than the 
election event.
    Elections in Zimbabwe--well, we saw what happened after the 
elections were stolen. So again, that confirms to us that the 
people themselves who are going to be ruled were not accepting 
of those results. They went to the streets. And as I said 
earlier, if we had given support to Zimbabwe from the onset, we 
probably would not have seen this happen.
    That brings me to the other question again as to are these 
leaders ready to change. My answer is no. So do you give them 
that kind of a support? My answer is not to be friends of 
people, but to be friends of the country and those people, not 
the leaders. You know, I have a good example when I wore a 
human rights hat some years back. I was invited to be part of a 
panel with one of your former colleagues, Congressman Bill 
Green, in Pennsylvania at one of the universities. And we were 
criticizing the policies of South Africa and Zaire then and now 
Congo. And we were talking even about Ethiopia again at that 
point.
    One of the participants came directly at Congressman Green 
and said, why are you always criticizing friends of America or 
the U.S. Why don't you look at the Soviet friends as well? 
Well, the congressman was talking about Ethiopia, criticizing 
Ethiopia. But then what it said to me was that we were 
supporting the leaders who were supporting friends, and we are 
not supporting the process and the people in those countries. I 
think that is what we need to look at, and those are the 
recommendations that we will make to you, to look at the 
electoral process in each of those countries, and think in long 
term, just like you think democracy in a long-term process. 
Thank you.
    Mr. Simpkins. Well, in terms of the regression in 
democracy, I think there has been a sliding back because, as my 
colleague says, we look at the event of Election Day, and not 
the whole process. I do agree we come in too late. You can't 
parachute into an election situation and really do a good job. 
I have seen the chairman on the campaign trail in a number of 
places, and you know that there are things that happen long 
before Election Day that determine whether you are going to win 
or not.
    Back in 1992, I was part of the team that observed the 1992 
elections in Kenya, and that election was manipulated months 
and months before when the electoral districts were 
apportioned. There were these huge districts for the opposition 
and these little tiny districts for the ruling party. So quite 
naturally, they have an advantage from the start.
    The other thing is that on election commissions, we need to 
have permanent election commissions. You can't do this on an ad 
hoc basis, which is what we are doing too often.
    Thirdly, I think that we seem to be allergic to working 
with political parties. And when we look at countries like 
South Africa and Namibia and Equatorial Guinea even, part of 
the reason why you have these states dominated by one party, 
even Botswana, which is a democratic situation, is that the 
opposition is too weak to really compete. I observed the 
election in Equatorial Guinea just several months ago. And 
honestly, it is very difficult to say that that is a good 
election when you win by 97 percent of the vote. But the 
opposition is so terrible that even if the President didn't 
campaign, he probably still would win, though not by 97 
percent.
    We need to put more effort and resources into working with 
these political parties so they are able to genuinely compete. 
Even in some cases where there is competition, it is 
competition between one person and another person. Both their 
parties are cults of personality and not real parties. That is 
why we have a problem with this whole succession of sons 
because if you had a real party, there would be people within 
that party who would be in line to be the next President.
    Now in terms of trafficking, Mr. Smith, you know, you and I 
have traveled to countries in looking at that, and one of the 
things we saw was a lack of effective law enforcement, for one. 
You have situations in which families don't do due diligence on 
people who come by and say, well, look, I can take your 
daughter to the city; she will make money; she will send money 
back home. They have no idea if that is real or not, and often 
it isn't real.
    When we first started talking about this--I talked to some 
of my African friends, and they said, oh, you don't understand 
us. We have cultural differences. People, cousins, come from 
the city, and they come to town, and they don't get paid, and 
they work in the house because at some point they are going to 
get an education. Well, that is not what we are talking about. 
We were in Sudan in Khartoum and talked that group CEAWAC. We 
were talking about slavery. They were talking about bride 
stealing. There is a big difference. But they didn't seem to 
grasp the difference in that.
    So the other thing is a lot of these young women are sent 
to the West, to Italy--a lot of Nigerians are sent to Italy. A 
lot of them go throughout Europe, and a lot of them end up 
here. And it is very difficult for us to tell people how 
terribly they do in enforcing trafficking laws when we have 
raids here where for a long term there have been whole, you 
know, cabals of traffickers.
    Now Zimbabwe, you are right, I went with--in fact, Dr. 
Pearl Alice Marsh, to take a look at the situation there. You 
know, I don't think I have ever seen in 30 years in looking at 
Africa a country devolve so much. There was a CODEL that Mr. 
Royce led back in 1997, and Zimbabwe was one of the countries 
we visited. And it was an oasis after being in Angola and 
Democratic Republic of Congo. You end up in Zimbabwe that had a 
really successful stock exchange and gas stations with what 
looked like 7-Elevens. Everything was good. The economy was 
going well. And then all of a sudden, the government took it 
into its mind to find this money, this foreign money, that was 
in the system, and the inflation rate went up so high that even 
the banks were going on the black market to get money.
    But they told the businesses, the shopkeepers, you have to 
use the official rate that we have. So as a result, they went 
out of business because they were losing money with every 
transaction. Then they went after the commercial farmers. Now 
the commercial farmers admitted that they got this land as a 
result of it being taken from Africans. So it should have been 
transferred. That is not a question. The question is how it was 
done.
    The black farmworkers were not given the land. Cronies were 
given the land, and they did not know how to deal with it. When 
their production went down, the manufacturing in Zimbabwe, 
which was dependent on commercial farming, also went down. Then 
they had the situation that we saw, which was they went after 
the traders looking for this foreign money in the system. They 
put all of them out of business, even ones who had licenses. 
Now you have the whole economy, formal and informal, that is 
out of business.
    So it is ironic, though, that when we disallowed Zimbabwe 
from being in AGOA, they were still in the generalized system 
of preferences, and they still happened for a long time to be 
one of our leading trading partners. So that is an anomaly in 
the system that we need to look at.
    Now you asked me about the Global Sullivan Principles. We 
have several hundred endorses from around the world in America 
and Europe, in Africa, in Asia, including I think a Chinese 
company or two, and in Latin America. And we think that it 
governs the way businesses deal with their employees, but also 
their communities. And we are looking at using it for a water 
program in Liberia, where we want to work with the companies 
that use water so that they clean the water and provide it to 
their employees so they don't have to go looking for water for 
their families, and also to their communities.
    Lastly, on the PEPFAR issues, theoretically, I would agree 
with the President's view that at some point we need to 
transfer responsibility for paying for these treatments to 
African governments. My only concern, and my main concern, is 
that too many of these governments don't have a working 
healthcare system. So if you do it too quickly, what you are 
doing is just ending the reality of treatment.
    Mr. Payne. Well, let me thank you all very much. That was a 
very healthy exchange, and I really appreciate all as we could 
certainly go on. And I, first of all, appreciate your staying 
over the time. I am sure that you intended to stay, but this 
has been a very important hearing. We have been attempting to 
get the Assistant Secretary here for some time. And so you made 
history because you are here with him at this hearing before 
our subcommittee. And your information was great.
    I just want to thank you, Dr. Schneidman, for mentioning 
the bill that I introduced, the Higher Education and Expansion 
Improvement Act. As you know, we have been pushing education 
for the girl child, elementary and secondary. And I would 
certainly like to once again request my great friend, the 
ranking member, to take a look at the bill again. We are trying 
to get a great co-sponsor to it. So we will confer the next day 
or two to see whether we can move that forward in a bipartisan 
way.
    Let me also ask for unanimous consent to enter into the 
record a statement by the African Rights Monitor about human 
rights and humanitarian conditions in the Ogaden, and I will 
enter that without exception, without objection.
    And finally, once again, thank you all for your attendance, 
and those of you who stayed to listen, it has been very 
instructive, and we will certainly glean a lot of important 
information as we move forward in our policies here in the 
United States Congress.
    At this time I ask unanimous consent for members to have 5 
legislative days to revise and extend their remarks. And 
therefore, at this time, the hearing stands adjourned. Thank 
you.
    [Whereupon, at 8 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record Notice 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Minutes 
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
